<html>
<title> - THE FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



    THE FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2004

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 3266

                               __________

                             MAYY 11, 2004

                               __________

                           Serial No. 108-102

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
93-974                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    ------------------------------  
                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                         Subcommittee on Health

                  MICHAEL BILIRAKIS, Florida, Chairman

RALPH M. HALL, Texas                 SHERROD BROWN, Ohio
FRED UPTON, Michigan                   Ranking Member
JAMES C. GREENWOOD, Pennsylvania     HENRY A. WAXMAN, California
NATHAN DEAL, Georgia                 EDOLPHUS TOWNS, New York
RICHARD BURR, North Carolina         FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               BART GORDON, Tennessee
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
  Vice Chairman                      BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               GENE GREEN, Texas
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             DIANA DeGETTE, Colorado
CHARLES W. ``CHIP'' PICKERING,       LOIS CAPPS, California
Mississippi                          CHRIS JOHN, Louisiana
STEVE BUYER, Indiana                 BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        JOHN D. DINGELL, Michigan,
MIKE FERGUSON, New Jersey              (Ex Officio)
MIKE ROGERS, Michigan
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Cox, Hon. Christopher, Chairman, House Select Committee on 
      Homeland Security..........................................     4
    Mitchell, Andrew T., Deputy Director, Office of Domestic 
      Preparedness, U.S. Department of Homeland Security.........    13
    Raub, William F., Acting Assistant Secretary, Planning and 
      Evaluation, U.S. Department of Health and Human Services...    22
Additional material submitted for the record:
    Cox, Hon. Christopher, Chairman, House Select Committee on 
      Homeland Security, response for the record.................    37
    Pickering, Hon. Charles ``Chip'', a Representative in 
      Congress from the State of Mississippi, response for the 
      record from DHS and HHS witness............................    38

                                 (iii)

  

 
    THE FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2004

                              ----------                              


                         TUESDAY, MAY 11, 2004

                  House of Representatives,
                  Committee on Energy and Commerce,
                                    Subcommittee on Health,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2123, Rayburn House Office Building, Hon. Michael 
Bilirakis (chairman) presiding.
    Members present: Representatives Bilirakis, Norwood, and 
Shimkus.
    Staff present: Nandan Kenkeremath, majority counsel; Jeremy 
Allen, health policy coordinator; Eugenia Edwards, legislative 
clerk; Chuck Clapton, majority counsel; John Ford, minority 
counsel; and Jeff Donofrio, minority staff assistant.
    Mr. Bilirakis. This hearing will come to order. Today's 
hearing will focus on an important piece of legislation that is 
currently before this committee, and it is important in spite 
of the fact that we don't have much of an audience out there 
and certainly none at all up here. But it is a Tuesday 
afternoon, and I think we all know that many Members of 
Congress are still traveling.
    I would like to thank our witnesses for joining us this 
afternoon. I can think of very few topics as timely or 
important as ensuring that we are prepared to respond to any 
future terrorist attacks. I am sure you all agree with me.
    I would like to begin by recognizing our friend and 
colleague, Mr. Cox, for appearing before the subcommittee. I 
know he has worked diligently on homeland security issues since 
assuming the chairmanship of the Select Committee on Homeland 
Security, and we certainly look forward to his insight as we 
discuss H.R. 3266.
    The Faster and Smarter Funding For First Responders Act of 
2003 was favorable reported by the Select Committee on Homeland 
Security earlier this year. The bill would reform the manner in 
which the Department of Homeland Security issues grants to 
State and local governments to enhance the ability of first 
responders to prevent, prepare for and respond to acts of 
terrorism. The primary revision to the current law would be to 
change the criteria used to distribute funding for two existing 
first responder grant programs: The State Homeland Security and 
the Urban Area Security Initiative Grant Programs.
    As the Energy and Commerce Committee prepares to consider 
this legislation, I think it is important that members 
understand how this bill interacts--very significant--how this 
bill interacts with existing programs under this committee's 
jurisdiction. For example, one of this committee's most 
important achievements over the past several years was the 
Public Health, Security and Bioterrorism Preparedness and 
Response Act of 2002. This bipartisan legislation significantly 
enhanced our Nation's ability to respond to an attack using 
biological or chemical weapons.
    Included in this act are new grant programs designed to 
improve state, local, and hospital preparedness for 
bioterrorism and other public health emergencies. Such grants 
can include funding for emergency medical service providers and 
other first responders, similar to what is included in H.R. 
3266. I am therefore interested in exploring further how we can 
maximize the effectiveness of both of these grant programs.
    I am also interested in hearing more about Homeland 
Security Presidential Directive 8, which President Bush signed 
December 17, 2003. Through HSPD-8, the President tasked 
Secretary Ridge, in coordination with other Federal departments 
and State and local jurisdictions, to develop national 
preparedness goals, improve delivery of Federal preparedness 
assistance to State and local jurisdictions, and strengthen the 
preparedness capabilities of Federal, State, territorial, 
tribal and local governments. The interaction between executive 
branch actions and acts of Congress is important and one I 
intend to explore further this afternoon.
    In addition to Mr. Cox, we have two additional witnesses 
that will be able to provide the subcommittee with important 
perspective on this issue. The second panel will consist of 
Andrew T. Mitchell, Deputy Director of the Office of Domestic 
Preparedness at the Department of Homeland Security, and 
William Raub, Acting Assistant Secretary for Planning and 
Evaluation at the Department of Health and Human Services. 
Thank you both for joining us today.
    I am interested in being updated on the progress being made 
to implement provisions of the Public Health Security and 
Bioterrorism Preparedness and Response Act with respect to 
first responders, the rationale behind HSPD-8 and any potential 
changes in allocations of responsibility and expertise between 
HHS and DHS under either H.R. 3266 or HSPD-8.
    [Additional statements submitted for the record follow:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Thank you Mr. Chairman.
    I commend you for holding this hearing on H.R. 3266, the Faster and 
Smarter Funding for First Responders Act. I also commend Chairman Cox 
and Ranking Member Turner for their leadership and bipartisan work in 
the Select Committee on Homeland Security. Today we will further review 
the vitally important work being done to upgrade our Homeland Security, 
preparedness, and response capabilities.
    We want to ensure that state and local governments have the 
essential capabilities to allow them to respond to terrorist attacks 
and other potential public emergencies. We also want to ensure that 
Federal grants are used to acquire the right equipment, training, and 
interoperable communications systems for first responders.
    Both the Department of Health and Human Services and the Department 
of Homeland Security have important roles and expertise in these areas. 
Last Congress the President signed the Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002. That Act set out a 
broad role for the Department of Health and Human Services in 
coordinating preparedness and responses to bioterrorism and other 
public health emergencies.
    This law also envisioned the need for coordination between states, 
local governments, hospitals, emergency service personnel and other 
first responders. Section 108 of the Act set out a specific interagency 
workgroups to address guidance on many of the issues related to first 
responders.
    In the Homeland Security Act of 2002, Congress basically preserved 
this role for the Department of Health and Human Services but provided 
the new Department of Homeland Security with an overall management and 
coordination role for Federal responses to terrorist attacks and other 
emergencies. Several existing Department of Homeland Security grant 
programs provide for improving the capabilities of State and local 
governments, including for provisions for first responders.
    It is important that any new legislation be drafted carefully to 
maximize the expertise of each agency, to rationally utilize existing 
programs and working groups, and to minimize inconsistencies and 
unnecessary overlaps.
    I look forward to hearing from today's witnesses on the operation 
of current law and programs for first responders and the relation of 
these current laws and programs to H.R. 3266.

                                 ______
                                 
Prepared Statement of Hon. Sherrod Brown, a Representative in Congress 
                         from the State of Ohio

    Thank you, Mr. Chairman, for holding today's hearing.
    Welcome Chairman Shays. I hope our two committees will continue to 
work together to address the safety of the country.
    And welcome Mr. Mitchell and Mr. Raub. Thank you for sharing your 
expertise this afternoon.
    In the wake of the Sept. 11 attacks, this Congress reexamined how 
to better support our first responders--our first line of defense 
against bioterrorist attacks.
    This committee worked tirelessly to address the needs of our first 
responders--and the larger public health system--through development 
and passage of the bioterrorism bill.
    And following that, Congress created the Department of Homeland 
Security, another important step towards protecting the country against 
terrorism.
    The principal goal of the bill we're considering today, H.R. 3266, 
is to improve the way funding flows to states and localities, giving 
priority to those localities with the greatest level of threat.
    While the bill will not alter grants distributed through HHS, this 
hearing offers our committee the opportunity to learn more about the 
progress made under the bioterrorism bill, the relationship between HHS 
and the Department of Homeland Security, and where, if at all, there 
are duplicative efforts.
    I look forward to the hearing the views of our expert panel and 
hope the committee will take these opinions into consideration and make 
any necessary changes to the bill before it is brought to the House 
floor for a vote.
    Thank you.

                                 ______
                                 
 Prepared Statement of Hon. Bart Stupak, a Representative in Congress 
                       from the State of Michigan

    Mr. Chairman, thank you for calling this hearing, and 
Representative Cox, Mr. Mitchell, and Mr. Raub, thank you for joining 
us today to discuss Homeland Security and HR 3266, the Faster and 
Smarter Funding for First Responders Act of 2004.
    I am generally supportive of provisions in this bill that would 
help states, local governments, and first responders better prepare for 
acts of terrorism by evaluating and prioritizing those communities that 
are most threatened. And I am hopeful that this hearing will provide 
insight on how changes to HR 3266 may better enable the Department of 
Homeland Security and the Department of Health and Human Services first 
responder authorities to work together as efficiently as possible.
    What still concerns me, however, is that Homeland Security funding 
is not trickling down to the locals on the ground where they need it 
most. Since September 11, 2001, many in this nation and this Congress 
have come to recognize the importance of the sacrifices made by our 
first responders. Every day these men and women put their lives on the 
line in order to protect and serve our communities.
    Unfortunately, when I am back in my District in Northern Michigan, 
what I'm hearing from our first responders is that they are just not 
seeing the amount of funding necessary to obtain the resources they 
need to protect their communities and themselves.
    This was corroborated by the Conference of Mayors on January 22nd 
of this year when it released a homeland security evaluation which 
reported that an astonishing 76 percent of cities have still not 
received any funding from the largest homeland security program 
designated to assist first responders.
    Changes are obviously needed in the capital outlay process so 
Homeland Security money can get out to our first responders in a more 
efficient and timely manner. The state must have the ability to 
directly release funds to the locals instead of reimbursing them only 
after they have already spent their own money. As the Representative of 
Michigan's most rural congressional district, it just doesn't make 
sense to me that small communities are required to shell out tens of 
thousands of dollars up front to procure their homeland security needs 
and update their emergency services when Congress has already 
appropriated these funds. It is also essential that our first 
responders are educated about this process so they can receive this 
crucial funding.
    Not only do we need to get this money directly out to our first 
responders as soon as possible, but we need to start fully funding 
these programs. The State Homeland Security Grant program was funded at 
$1.7 billion in FY 04, but President Bush's budget request for 2005 
slashes the program to $700 million. Overall, the President's budget 
would reduce first-responder assistance by 14.5 percent from the $4.18 
billion that Congress appropriated for FY 04 to $3.75 billion in FY 05. 
This kind of budget cut is shocking to me considering the Bush 
Administration claims Homeland Security funding is a top priority.
    We also need to provide assistance to help regional law enforcement 
and first responders communicate with each other in times of emergency. 
My bill, HR 3370, The Public Safety Interoperability Act, would provide 
grants to local law enforcement agencies to modernize their 
communication systems and become interoperable, allowing different 
public safety agencies in different jurisdictions to communicate in 
times of crisis.
    The tragic events of September 11th illustrated why it is 
imperative that our law enforcement officers are fully interoperable. 
Police, Fire, and Emergency Medical Services personnel from multiple 
jurisdictions were called to respond to the World Trade Center attacks 
in New York City. First responders found themselves unable to 
communicate with other emergency personnel because of the different 
communications systems and radio frequencies.
    343 firefighters and 72 law enforcement officers lost their lives 
in the World Trade Center on September 11th. 121 of those firefighters 
who died lost their lives because they were unable to receive radio 
warnings that the second tower looked ready to fall. When our first 
responders are confronted with an emergency situation, it is absolutely 
necessary that they are able to communicate with one another so they 
can fully assess the situation and how best to handle it.
    We must provide our first responders with adequate resources and 
the proper funding they need to protect their communities and 
themselves from daily crime and threats of terrorism.
    Thank you, Mr. Chairman, for this opportunity to discuss the 
improvements that must be made so our first responders can do their 
jobs in the best and most efficient way possible.

    Mr. Bilirakis. We now have before us, the gentleman from 
California. We look forward to your testimony today. Please 
proceed.

   STATEMENT OF HON. CHRISTOPHER COX, CHAIRMAN, HOUSE SELECT 
                 COMMITTEE ON HOMELAND SECURITY

    Mr. Cox. Well, thank you, Mr. Chairman. I very much 
appreciate the opportunity to testify today. This bill, as you 
know, passed the Select Committee on Homeland Security with the 
unanimous support on a roll call vote of all the Republicans 
and Democrats on the committee. And, as you know, while I am 
here in my capacity as chairman of that Select Committee, I am 
also a proud member of this committee, and I recall how very 
recently the Energy and Commerce Committee and the Select 
Committee on Homeland Security worked in close cooperation to 
produce the legislation that gave us Project Bioshield. I look 
forward to doing the same on this first responder bill and 
moving to the House floor as expeditiously as possible.
    It is especially fitting that we are focusing on the needs 
of first responders today because this is National Police Week. 
This is a time when we honor the sacrifices made by those who 
protect our communities. It is also a day when television has 
been showing us and telling us of the grisly beheading of an 
American civilian who was trying to build telecommunications 
infrastructure for the people of Iraq. The execution, the 
beheading was performed by al Qaida serving as yet another 
reminder, if one were needed, that today's hearing is not a 
theoretical exercise. These people are out to kill Americans.
    We are asking law enforcement personnel to adapt, 
therefore, to a new anti-terrorism mission, and we have got to 
give these people the support that they need to carry out their 
crucial role in defending our country. The bill we are 
discussing today, the Faster and Smarter Funding for First 
Responders Act, will do that.
    By way of background, since September 11, 2001, the 
Congress, Mr. Chairman, has appropriated more than $23 billion 
to help States, localities and first responders be prepared for 
acts of terrorism or other public emergencies. This money has 
been awarded through multiple grant programs administered by 
several Federal agencies, including not only the Department of 
Homeland Security but also the Department of Justice, the 
Federal Emergency Management Agency now subsumed in DHS, the 
Department of Health and Human Services, and so on.
    Some of this money goes to support traditional, non-
terrorism-related pre-September 11 priorities. Other monies go 
to activities that our first responders have only undertaken in 
a serious way since September 11. The latter pot of money 
accounts for the largest single grant awards over the past 2 
years. DHS, and before it the Department of Justice, has 
awarded roughly $6.3 billion to States for the specific purpose 
of terrorism preparedness since September 11. The President's 
budget for 2005 requests an additional $2.6 billion. That is an 
increase over 2001 levels of over 2000 percent.
    Despite this enormous increase in funding, our first 
responders continue to report that they aren't seeing the 
money. They haven't received most of the money, mostly due to 
what we have discovered are administrative bottlenecks at 
various levels of government. We have been able to ascertain 
that Congress really did appropriate it, DHS really did make 
the grants, the Governors really did obligate the funds, and 
yet the first responders aren't receiving it.
    An even bigger problem, in my view, is that our terrorism 
preparedness funding is being allocated at the Federal level in 
a manner that does not direct the money to where we need it the 
most. This is a pattern often repeated at the State level where 
grants are not made according to risk. In the immediate 
aftermath of September 11, Congress passed the Patriot Act, 
which contains some vitally needed provisions, such as the 
elimination of the wall between law enforcement and 
intelligence that kept those two fields separate, even in 
terrorism-related investigations.
    But the Patriot Act also put in place a very arbitrary 
political formula for the distribution of anti-terrorism grants 
to the States. It guaranteed that every State, no matter how 
big or how small, would receive the same fixed percentage of 
funding, 0.75 percent of the total each year, which 
collectively accounts for 40 percent of all the grants.
    At the same time, the Patriot Act has applied this formula, 
which was $1 million at September 11 to a much larger pot of 
money--$15 million last year. Now, I mentioned that 40 percent 
is automatically sent to the States according to this fixed 
formula, 0.75 percent no matter what. The remaining 60 percent 
of the grant funds are distributed to the States based solely 
on population, ensuring that even the smallest State receives 
an additional amount of money, for a total of more than $17 
million last year. We can't afford to keep dispensing money 
according to these political formulas without regard to the 
actual risks of terrorism.
    So the Homeland Security Committee has worked now for over 
a year on this problem of how to get the money to where it is 
intended and how to make that the money is granted on the basis 
of actual vulnerabilities, actual threat risk to population and 
consequences of a terrorist attack, actual intelligence about 
terrorist capabilities and terrorist intentions. We need to 
look at all of those factors and prepare accordingly.
    The legislation's name is faster and smarter. It is faster 
now because by requiring and incentivizing States to pass 
through their awarded funds to localities within tight 
timeframes and by penalizing States that fail to do so and by 
allowing regions to apply directly for funds and by 
substituting actual cash for the potential of reimbursement, we 
are going to get the money to its intended destination right 
away.
    It is smarter because we are allocating grant awards to 
States and regions based on an assessment of terrorist threat, 
vulnerability and consequences; in other words, the actual 
risks that they face. Terrorists are not arbitrary in their 
selection of targets, and we shouldn't be arbitrary in how we 
prepare to deal with them.
    H.R. 3266 also ensures that terrorism grant funding is used 
to achieve clear and measurable preparedness goals, which the 
legislation describes as essential capabilities. We want to be 
sure that are building toward an objective--an objective 
standard for being prepared against these known risks. Right 
now many States and localities simply aren't sure how to 
utilize the money most effectively, which is yet another reason 
for the delay in actual spending at the local level. We know 
that not all communities are the same or face the same types of 
risks. Accordingly, we need to help communities identify their 
unique terrorism preparedness needs. The bill before you today 
will do this.
    Let me emphasize just two points, Mr. Chairman, Mr. 
Norwood, for your consideration. First, the bill you are 
considering covers only those terrorism-specific preparedness 
grants administered by the Department of Homeland Security. As 
I mentioned, there are many other departments and agencies of 
the government that also have other programs, most of which 
anti-date September 11. They are not covered by this 
legislation. All aspects of the bill, including risk-based 
allocation of grants, which I have just mentioned, including 
the State strategies, the creation of essential capabilities, 
training and equipment standards and certain administrative 
procedures, all of these things apply only in the context of 
those DHS grants. The bill expressly excludes all grant 
programs administered by HHS and other Federal agencies. It is 
an amendment to the Homeland Security Act, and it is tailored 
to a very specific purpose.
    Second thing is that the definition of first responders in 
the legislation is exactly the same as the definition of 
emergency response providers that is already in the Homeland 
Security Act. What that means for this committee is that in 
addition to fire fighters and police officers, we also include 
emergency medical personnel and related agencies. That is 
consistent with the long-standing practice of ODP even when it 
was in the Department of Justice. This broad definition ensures 
that the emergency medical community is included as a key 
element in anti-terrorism planning, training and equipment 
purchases. In this respect, the bill in no way alters current 
practices or policy.
    Finally, let me say that with the creation of the 
Department of Homeland Security came not only the opportunity 
to consolidate what the Federal Government is doing but also 
new opportunities for overlap and duplication. I am happy to 
say that both the Department of Homeland Security and HHS have 
worked diligently to avoid any duplication in public health 
preparedness grants. They have largely focused on different end 
users and on different priorities.
    President Bush recently issued a Presidential Directive 
that you referred to in your opening statement, Mr. Chairman, 
that is the basis for the ongoing construction of a fully 
coordinated and streamlined Federal grant process for terrorism 
and other emergencies. That fully coordinated interagency 
process will be completed by the middle of next year, and it 
should eliminate any concerns about potential overlap in DHS 
and HHS programs.
    So this bill is a nice complement to what already is going 
on. It is a nice complement to what HHS is separately doing. 
There is, for example, a First Responder Essential Capabilities 
Task Force that this bill creates that is a complement to, and 
in no way an overlap with, the Federal Working Group 
established under the authority of the HHS Secretary. That HHS 
Working Group was established several years ago to review 
matters relating to bioterrorism and public health emergencies.
    The HHS Bioterrorism Working Group is focused on public 
health emergencies, with particular concern for research on and 
prioritization of pathogens and biomedical countermeasures. Its 
participants are Federal agencies, and its goal is to make sure 
that there is coordination among Federal partners in the fight 
against bioterrorism. By contrast, the task force that is set 
up in this legislation, the Essential Capabilities Task Force, 
is made up not of Federal agencies but of first responders, 
State and local officials. Its focus is on creating clearly 
defined and measurable goals for preparedness, and its aim is 
to tailor these to the needs of different communities for all 
forms of terrorism.
    This first responder task force is critical because of the 
importance of hearing from those on the front lines and in our 
local communities. We need to hear from them directly about 
what their needs are and what their priorities should be. And, 
as I mentioned earlier, the essential capabilities created 
under this bill would not have any impact beyond the DHS grant 
programs covered by the bill.
    Mr. Chairman, I appreciate the opportunity to testify 
before you. I urge this committee to report the bill quickly so 
that we can help our Nation meet the urgent challenge of 
terrorism in our cities and home towns. I want to thank you for 
your consideration, and tell you that I look forward to working 
as a member of the Energy and Commerce Committee on the 
consideration of the bill, and I would be glad to answer any 
questions that you have. subject.
    [The prepared statement of Hon. Christopher Cox follows:]

  Prepared Statement of Hon. Christopher Cox, Chairman, House Select 
                     Committee on Homeland Security

    Thank you Chairman Bilirakis and Ranking Member Brown for the 
opportunity to testify today on H.R. 3266, the ``Faster and Smarter 
Funding for First Responders Act of 2004''--a bill that recently passed 
the Select Committee on Homeland Security unanimously. As you know, I 
am the Chairman of the Select Committee, but I am also honored to be a 
long-time Member of the Energy and Commerce Committee. I look forward 
to working with you and all the Members of this Committee to move this 
first responder bill to the House floor as expeditiously as possible.
    It is especially fitting that we are focusing on the needs of first 
responders today, during National Police Week--a time when we honor the 
sacrifices made by those who protect our communities and our freedom. 
Effective law enforcement is critical to upholding our national 
traditions and maintaining our quality of life.
    As law enforcement officers adapt to their new anti-terrorism 
missions, we must give them the support necessary to carry out their 
crucial role in defending our homeland. The bill we are discussing 
today, the Faster and Smarter Funding for First Responders Act, would 
do just that.
    By way of background, since the tragic events of September 11, 
2001, the Congress has appropriated more than $23 billion to help our 
States, localities, and first responders improve preparedness for 
future acts of terrorism or other public emergencies. This money has 
been awarded through multiple grant programs administered by several 
Federal agencies, including the Department of Justice, the Federal 
Emergency Management Agency, the Department of Health and Human 
Services (HHS), and--since March 2003--the new Department of Homeland 
Security (DHS).
    Some of this money goes to support traditional, non-terrorism-
related missions of our first responders, such as the COPS program and 
the FIRE Act program. Some of this money goes to support activities 
that help our first responders prepare for public emergencies, whether 
terrorist-inflicted or naturally-occurring, such as the HHS public 
health preparedness grants awarded to State and local public health 
departments and emergency medical centers. And some of this money--most 
notably, from the DHS Office for Domestic Preparedness, or ODP--goes 
specifically to help first responders prevent, prepare for, and respond 
to acts of terrorism, particularly those involving weapons of mass 
destruction.
    This latter pot of money accounts for the largest single grant 
awards over the past two years. DHS--and, before it, DOJ--has awarded 
roughly $6.3 billion to States for this specific purpose since 
September 11th. The President's Fiscal Year 2005 budget requests an 
additional $2.6 billion--an increase of more than 2,000 percent over 
2001 levels. Despite this enormous increase in funding, our first 
responders continue to report that they have not yet received most of 
this money, due to administrative bottlenecks at various levels of 
government. A recent analysis by the Homeland Security Committee found 
that roughly $5.2 billion of the $6.3 billion awarded since 2001 
remains stuck in the pipeline, unused.
    An even bigger problem, in my opinion, is that this terrorism 
preparedness funding is being allocated at the Federal level in a 
manner that does not direct the money to where we are most threatened 
by terrorism--a pattern often repeated at the State level. In the 
immediate aftermath of September 11th, Congress passed the PATRIOT Act, 
a vital piece of legislation that removed the ``wall'' that had kept 
law enforcement and intelligence information separate even in 
terrorism-related investigations.
    But the PATRIOT Act also put into statute arbitrary, political 
formulas for the distribution of anti-terrorism grants to States. It 
guaranteed that every State--no matter how small its population or 
actual risk--received .75 percent of the total grant funding each year, 
resulting in roughly 40 percent of the grant funds being distributed 
without regard to risk or need. At the time the PATRIOT Act passed, 
this guaranteed minimum totaled less than $1 million per State. Last 
year, due to the enormous increase in overall funding, the guaranteed 
minimum was more than $15 million per State. The remaining 60 percent 
of these grant funds was distributed to States based solely on 
population, ensuring that even the smallest State received an 
additional $2 million last year--for a total of more than $17 million. 
Frankly, we can't afford to keep spending such sums without regard to 
actual risk.
    I introduced H.R. 3266 to address both of these problems--to make 
this funding both faster and smarter. Faster, by requiring and 
incentivizing States to pass through their awarded funds to localities 
within tight timeframes, by penalizing States that fail to do so, and 
by allowing regions to apply directly for funds in certain 
circumstances.
    Smarter, by allocating grant awards to States and regions based on 
an assessment of terrorist threat, vulnerability and consequences--in 
other words, the actual risks they face. Terrorists are not arbitrary 
in their selection of targets. We cannot afford to be arbitrary in how 
we prepare to deal with them.
    H.R. 3266 also ensures that this terrorism grant funding is used to 
achieve clear and measurable preparedness goals, which we call 
``essential capabilities.'' Right now, many States and localities 
simply are not sure how to utilize this money most effectively, which 
is yet another reason for the delay in actual spending at the local 
level. We know that not all communities are the same, or face the same 
types of risks. Accordingly, we need to help communities identify their 
unique terrorism preparedness needs. The bill before you today will do 
this, speeding actual use of grant funds and ensuring that the money is 
wisely spent.
    Let me emphasize several points for your consideration. First: The 
bill you are considering covers only those terrorism-specific 
preparedness grants administered by the Department of Homeland 
Security. All aspects of the bill--including risk-based allocation of 
grants; State strategies; creation of essential capabilities; training 
and equipment standards; and various administrative requirements--apply 
only in the context of those DHS grants. The bill expressly excludes 
all grant programs administered by HHS and other Federal agencies. It 
is an amendment to the Homeland Security Act, tailored to a very 
specific purpose.
    Second: The definition of ``first responders'' in this legislation 
is exactly the same as the definition of ``emergency response 
providers'' that is already in the Homeland Security Act. In addition 
to firefighters and police officers, this definition includes emergency 
medical personnel and related agencies. That's consistent with the 
long-standing practice of ODP even when it was in the Justice 
Department. This broad definition ensures that the emergency medical 
community--which works hand-in-hand with the more traditional first 
responders--is included as a key element in anti-terrorism planning, 
training, and equipment purchases. In this respect, our bill in no way 
alters current practice or policy.
    With the creation of DHS came the potential for overlap with other 
pre-existing departments and agencies, including HHS. Both DHS and HHS 
have worked diligently to avoid any duplication in public health 
preparedness grants. They have largely focused on different end users, 
and on different priorities. President Bush recently issued a 
Presidential Directive that is the basis for the ongoing construction 
of a fully coordinated and streamlined Federal grant process for 
terrorism and other emergencies. That fully coordinated inter-agency 
process, which will be completely in place by the middle of next year, 
should eliminate any concerns about potential overlap in DHS and HHS 
programs.
    Finally, the First Responder Essential Capabilities Task Force 
created by H.R. 3266 should not be confused with the Federal working 
group established under the authority of the HHS Secretary several 
years ago to review matters relating to bioterrorism and other public 
health emergencies. First, the HHS bioterrorism working group is 
focused on public health emergencies, with particular concern for 
research on and prioritization of pathogens and biomedical 
countermeasures. Its participants are Federal agencies, and its aim is 
to ensure coordination among Federal partners in the fight against 
bioterrorism. By contrast, the Essential Capabilities Task Force in 
H.R. 3266 is made up of first responders and Federal, state and local 
officials. Its focus is on creating clearly defined and measurable 
goals for preparedness, tailored to different types of communities, for 
all forms of terrorism. This first responder task force is critical 
because of the importance of hearing from those on the front lines and 
in our local communities directly about what their needs are and what 
their priorities should be. And, as noted earlier, the essential 
capabilities created under H.R. 3266 would not have any impact beyond 
the DHS grant programs covered by the bill.
    Mr. Chairman, I greatly appreciate the opportunity to testify on 
H.R. 3266, the Faster and Smarter Funding for First Responders Act of 
2004. I urge this Committee to report the bill as quickly as possible 
to help our Nation meet the urgent challenge of terrorism in our cities 
and home towns. Thank you for your consideration, and I would be glad 
to answer any questions Members of this Committee might have on this 
subject.

    Mr. Bilirakis. Thank you, Mr. Cox, and thank you for your 
great work on this issue. I am not sure whether we have had 
past history, similar history where we have started a committee 
under the circumstances under which Homeland Security was 
founded just a couple of years ago.
    Let me ask you very quickly, even though it is more of a 
tradition than anything else that we do not ask questions of 
fellow Members of Congress when they appear before us. Do you 
feel that the bill contains--the combination of the bill along 
with what already exists contains adequate accountability? We 
know that grants and funds have gone to States, local 
governments and what not but never did reach the first 
responders. It seems like there is a lack of accountability 
there somewhere along the line. Do we know where those funds 
are, in the first place?
    Mr. Cox. We do, and we are increasingly aware of the 
anomalies that created this problem. The first responders 
obviously want the money, they want to spend it. The Governors 
are trying to get it to them. Congress wants them to have the 
money, and so how can it be? And what we found is that there 
are a handful of reasons this money is stuck in the pipeline.
    First, many of the grant applicants aren't prepared to 
spend the money. Once the grant is made, they then begin the 
task of figuring out on what precisely what they should spend 
it. The grant process does not automatically approve the 
spending as it should, and so we can change that with this 
legislation. Second, we have many localities unable to come up 
with the money on the front end, so they can't take advantage 
of a reimbursement program. They are trying to put together the 
monies to go spend it so that then they can apply for 
reimbursement, but they may not have the money in the first 
place. Third is that there are patchwork of sometimes bizarre 
local requirements for additional approvals for spending the 
money locally even after you get the Federal and State 
approvals. So, for example, in New Hampshire, there has to be 
an approval at a town meeting, which takes place in March, and 
if you miss the March meeting, then you wait until next year.
    There are a number of things like this that should be very 
short work to fix, and I think we have got a pretty good handle 
on it. Everybody wants to fix the problem. This legislation can 
do that.
    Last, Mr. Chairman, with respect to accountability, it is 
very hard to hold people accountable when you haven't set any 
standards. We need to make sure that we focus on spending this 
money on the basis of risk rather than just doling it out sort 
of arithmetically and seeing what happens. So the greatest leap 
forward in terms of accountability will be linking the billions 
of dollars that we are investing in intelligence and learning 
about what the terrorists are up to and what they might do to 
us and the additional tens and even hundreds of millions that 
we are spending on learning our own vulnerabilities and then 
mapping the threats against the vulnerabilities and spending 
the money accordingly.
    Mr. Bilirakis. Well, thank you for that. It is amazing, the 
New Hampshire example is a good one in some of the things that 
we are really faced with in these types of cases.
    Let us say there is a county sheriff's department in 
whatever State, not New Hampshire but any other State, and it 
qualifies as a first responder and it needs radios in order to 
be able to do their job adequately as a first responder. How 
many grants might be available, different types of grants might 
be available for that sheriff to go to in order to be able to 
get the money that is needed?
    Mr. Cox. I don't know, Mr. Chairman, and that is a very----
    Mr. Bilirakis. There might be more than one, in other 
words.
    Mr. Cox. Of course. That is a very real-life example, and I 
would dare say that you, Mr. Chairman, Mr. Norwood and I have 
gotten that question or something very much like it from our 
constituents and our case workers and people in our office here 
in Washington are all busy trying to figure out how this all 
works. It is quite a maze for people to try and understand. 
What we are trying to do in this legislation, at least with 
respect to one cabinet department, the Department of Homeland 
Security, is create a single grant program for terrorism 
preparedness that will accommodate all of these potential uses, 
so there is no question about where you go for the money.
    Mr. Bilirakis. Yes. I would say so. Is it your intent to 
move legislation that the grant programs authorized by this 
legislation restrict themselves to first responder issues or 
can these grants be used for other homeland security purposes 
beyond those of assisting first responders in their efforts?
    Mr. Cox. I will say, first, that the purpose of the 
legislation is to make first responder grants, and it is meant 
to focus on the post-September 11 counterterrorism, terrorism 
preparedness priority. That are what these grants will be for. 
But that, second, on the grantee side, we have an all hazards 
approach, and we don't have a separate police department or a 
separate fire department for terrorists, and so once they get 
the money this is going to complement their overarching mission 
and that is fine. But what the bill does establish is a strict 
line of demarkation on the donor side so that we are not 
robbing Peter to pay Paul, we are not stretching the pre-
September 11 programs on a Procrustean bed and making them do 
double duty and pretending to be--giving, for example, the Fire 
Act or COPS or some other pre-September 11 purpose and at the 
same time giving for the post-September 11 counterterrorism 
priorities and mixing it all up and nobody can quite tell how 
much is going to which priority.
    So I think it is possible for us in the Federal Government 
to say this is for fighting terror, and we are going to focus 
you in these areas and we want to use the money in these areas, 
and we are going to favor applications for grants in these 
areas. But we recognize that back home you are also preparing 
for forest fires, buildings burning down, chemical spills, 
rape, murder, robbery, all of the things that go on, and if 
this complements that in any way, there is certainly nothing 
wrong with that.
    Mr. Bilirakis. I think that answers that question for the 
moment. All right. Thank you, Mr. Cox. Dr. Norwood, any 
questions?
    Mr. Norwood. Thank you, Mr. Chairman. Mr. Cox, just a sort 
of simple question, really. The funds that are being funneled 
now you have said it numerous times, it appeared to me, that 
they are not actually getting to the first responder, whether 
that be a policeman, a fireman or a health care person, and you 
are saying to me that this bill will help that. This bill will 
focus those funds into the first line of defense.
    The grants that you envision here is there monies in here--
I am concerned about the lack of training and standardization 
that is going on. The radios that the chairman was talking 
about in one town surely ought to function and be connected to 
or able to connect to the radios in a town 20 miles away in 
case a disaster occurs there. And just a little bit of my 
observation out there that I don't know how standardized we 
have gotten, and I don't know if HHS has actually concerned 
itself with training, because a lot of times they get this 
money--what I am hearing them say, they get these dollars but 
they are not sure exactly how they need to spend these dollars 
or, ``Who do I call up to call up to come in and frame my 
entire fire department?'' Now, tell me how this bill can help 
with that?
    Mr. Cox. The grant monies under this legislation can be 
used for training. They can also be used for equipment 
purchases. They can also be used to build in interoperable 
communications network. The Department of Homeland Security has 
already established baseline standards for interoperable 
communications for first responders, and I will say on that 
point that there is legislation that our committee members have 
been very, very keen to look at and mark up on the first 
responder interoperability question. We have deferred to the 
jurisdiction of the Energy and Commerce Committee on that point 
because, among other things, it involves spectrum. So there is 
work that we can do, and I say we as a member of the Energy and 
Commerce Committee, to advance that solution in a way that I 
can't do it on the Homeland Security Committee.
    Mr. Norwood. Well, I am going to ask our next guest a 
little bit about this in terms of what actually is going on in 
the country about training people. Do we actually have a group 
of people who we believe knows what to do in many situations 
that a first responder is called for? And if that is the case, 
are they then training other people to be trainers? But I will 
get to the next panel with that, and I thank you for your 
leadership in this area.
    Mr. Cox. Well, it is an excellent area of emphasis.
    Mr. Bilirakis. Mr. Shimkus to inquire.
    Mr. Shimkus. I have no questions, Mr. Chairman. Thank you.
    Mr. Bilirakis. Thank you, sir. Thank you, Chris----
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Bilirakis. [continuing] for taking time to be here and, 
again, thanks for your great work.
    The next panel consists of Mr. Andrew T. Mitchell, Deputy 
Director of the Office of Domestic Preparedness with the U.S. 
Department of Homeland Security, and Mr. William Raub, the 
Acting Assistant Secretary for Planning and Evaluation with the 
U.S. Department of Health and Human Services.
    I have already welcomed you, gentlemen, and I do so again. 
Your written statement is a part of the record. We would hope 
that in your statement here today you will complement it, 
supplement it, whatever the case might be. Mr. Mitchell, why 
don't we start with you?

 STATEMENTS OF ANDREW T. MITCHELL, DEPUTY DIRECTOR, OFFICE OF 
  DOMESTIC PREPAREDNESS, UNITED STATES DEPARTMENT OF HOMELAND 
  SECURITY; AND WILLIAM F. RAUB, ACTING ASSISTANT SECRETARY, 
 PLANNING AND EVALUATION, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Mitchell. Thank you, Mr. Chairman. Chairman Bilirakis 
and members of the subcommittee, my name is Andy Mitchell, and 
I am currently the Deputy Director of the Office for Domestic 
Preparedness in the Department of Homeland Security. And on 
behalf of Secretary Ridge and ODP Director Sue Mencer, it is my 
pleasure to be here today to appear before you and to discuss 
things that are going on in the Department, Office for Domestic 
Preparedness and our efforts to enhance the capabilities of 
State and local governments to address the challenge of 
terrorism domestically.
    ODP is the primary Federal Government agency responsible 
for preparing the Nation against terrorism by assisting States, 
local jurisdictions, regional and tribal governments in 
building their capacities to prevent, prepare for and respond 
to acts of terrorism domestically. Since its creation, ODP has 
provided assistance to all the States, 50 States, the District 
of Columbia, Commonwealth of Puerto Rico and the United States 
territories. We have trained more than 325,000 emergency 
responders and more than 5,000 jurisdictions and conducted more 
than 300 exercises across this country. By the end of the 
fiscal year 2004, ODP will have provided more than $8.1 billion 
in financial assistance and support to State and local 
governments.
    As of this week, 52 of the 56 States and territories have 
received their 2004 fiscal year funding under the Homeland 
Security Grant Program. This program includes funds to support 
statewide preparedness efforts under the State Homeland 
Security Program, the Law Enforcement Terrorism Prevention 
Program and the Citizens Corps Program. These awards total over 
$1.9 billion and a total of $2.2 billion will be provided under 
this initiative when we complete the award of the 56 grants.
    Further are the 50 urban areas designated under the fiscal 
year 2004 Urban Area Security Initiative, or the UASI Program. 
Forty-eight of those 50 jurisdictions have received their 
funding to date, and that represents $644 million of a total of 
$670 million available for the Urban Area Security Program this 
year. We have provided funds to 30 of the Nation's most used 
urban transit systems in 2004. All $49 million for that program 
to those 30 systems has already been awarded. And during this 
fiscal year at ODP, in cooperation with United States Fire 
Administration, we will make nearly $750 million in direct 
assistance to fire departments across the Nation under the 
Assistant to Fire Fighters Grant Program.
    As we have heard today from Chairman Cox's presentation, 
much of how the States and territories distribute and utilize 
the Homeland Security Grant Program funds are influenced by the 
results of the State assessments and the statewide strategies 
that they have provided to our office. They were due in our 
office January 31 of this year. These strategies are important 
to both the States and local governments as well as to our 
office and to the Federal Government. They provide information 
regarding vulnerabilities, capabilities, future requirements 
and define each preparedness goals and objectives. In essence, 
it provides the States a road map on how current and future 
funding can and should be applied in the areas of equipment, 
exercises training and other preparedness resources. And they 
provide the Federal Government with a better understanding of 
the first responders' needs and requirements. All 56 States' 
strategies have been received and reviewed, only 4 remain to be 
approved, and they should be approved very shortly.
    DHS' mission is critical, its responsibilities great, and 
we have only been at this a year, so I have had to assume a lot 
in the last 12 months. But we do know that we can do better, 
and we want to continue to identify ways that we can do better 
and improve.
    Since the creation of DHS, the Department has worked very 
closely with the Congress on how to better fulfill our common 
goal of a more secure America and from OD's unique position to 
assist our State and local partners. And one such congressional 
effort is H.R. 3266, the focus of this hearing today, the 
Faster and Smarter Funding for First Responders Act.
    As Chairman Cox discussed, this is a major attempt to 
improve how the Department provides assistance, and since the 
bill's introduction, the Department has worked with the staff 
of the Select Committee and more recently has provided the 
Select Committee a White Paper containing the Department's 
observations and comments on the various provisions of that 
bill. And with your permission, Mr. Chairman, I would like to 
share those views with this subcommittee and provide a copy of 
that White Paper for inclusion in the record.
    Mr. Bilirakis. Without objection, that will be the case.
    [The following was received for the record:]
 Department of Homeland Security Recommendations Concerning H.R. 3266, 
    ``Faster and Smarter Funding for First Responders Act of 2003''
    The Administration supports much of this legislation and, in 
particular, supports the Committee's intent, expressed in H.R. 3266, to 
further facilitate funding for our first responders. The Administration 
also acknowledges the extensive work on the part of the Committee to 
address some of the Administration's concerns with particular elements 
of this legislation. The Administration further looks forward to 
discussing the following issues with the Committee.

1. Regional Applications for Grant Funding:
    The Department recognizes that particular localities encompass more 
than one state jurisdiction, and as a result has incorporated a 
regional feature in the Urban Area Security Initiative. Regional 
funding may conflict with state assessments strategies, which states 
and localities have worked to complete recently. To the degree regions 
do factor in a state's overall response, these are factored in state 
plans. Direct funding to tens of thousands of municipalities would, 
however, bypass such essential planning, while at the same time require 
an exponential increase in the time and cost to review such proposals 
and track funding.

2. Modification of the Homeland Security Alert System (HSAS):
    The Department applauds the efforts of the Committee to examine the 
operation of the HSAS as a means to more efficiently and precisely 
alert the nation. The Department is strongly concerned that the current 
language is too prescriptive as it would mandate implementation of a 
warning scheme without consideration of sufficient supporting 
intelligence. Since intelligence and information requirements shift, it 
is our experience that the Secretary should be able to maintain as much 
flexibility as possible in providing critical information to states and 
localities. Furthermore, the Department believes that the provision 
requiring the Secretary to report annually to Congress on the bases for 
geographic or economic sector specific HSAS warnings is unnecessary due 
to the current active information sharing structure with State and 
Local entities regarding threat warnings. While DHS continues to 
improve this structure, this appears to be the most appropriate means 
to assure adequate information sharing and we would be pleased to 
discuss this structure further with the Committee.

3. Task Force and Essential Capabilities:
    The Department appreciates the Committee's efforts to enhance the 
security of the homeland which underlie the proposed new task force. 
However, it is unclear how such duplication of the current advisory 
mechanism, provided for under Section 871 of the Homeland Security Act 
of 2002, would enhance the Department's mission. The Department 
believes a more efficient approach could be attained through the 
combination of these task force/essential capabilities provisions into 
the existing advisory structure, an approach that could be accomplished 
either by legislative or administrative means. The Department looks 
forward to working with the Committee to explore these alternate 
avenues and, in addition, to determine if the Committee sees specific 
needs not already met by these advisory groups.

4. Imposition of Penalties for Delayed Pass-Through to Localities:
    In principle, the Department agrees with the Committee that 
imposition of penalties may be appropriate as part of a larger goal to 
move these funds rapidly to the localities. The Department looks 
forward to discussing several practical implications, such as statutory 
time frames for disbursement of funds, scope of penalties, effect on 
flexibility of the funding, and effective deadlines.

5. Prohibition on Use of Grant Funds for Construction:
    The Department appreciates and shares the concerns of the Committee 
in ensuring that the grant funds will be put to their intended use. The 
Department is concerned, however, that the prohibition on using any 
grants to construct or modify facilities might unduly prevent the 
improvement of State and local command and control at emergency 
operation center facilities, as well as construction activities for 
critical infrastructure protection projects. The Department would 
therefore appreciate the opportunity to work with the Committee to 
establish a balance between blanket prohibitions and the unrestricted 
use of grant funds--perhaps the creation of certain specific limited 
exceptions to general prohibition.

6. ``Risk-Based'' grant standards:
    The Department is encouraged that the Committee bill is largely 
consistent with the Administration's focus on terrorism preparedness. 
Should this focus of H. R. 3266 be maintained, the legislation should 
ensure that guidelines for allocation of homeland security-related 
federal assistance are fully consistent with the guidelines set forth 
in Homeland Security Presidential Directive (HSPD) 8. HSPD 8 
establishes that preparedness assistance is intended to build capacity 
to address major events, especially terrorism, and not primarily to 
support existing capacity to address normal local first responder 
operations. The assistance will have a particular focus on terrorism 
risks while also basing allocations on population concentrations, 
critical infrastructure, and other significant risk factors, 
particularly terrorism threats. The Department believes the focus of 
this bill on terrorism preparedness will ensure that funds are 
allocated in a manner that best supports our efforts to prevent, 
mitigate, and respond to threatened terrorist attacks.

    Mr. Mitchell. Thank you. Generally, Mr. Chairman, the 
Department supports much of what is contained in H.R.--proposed 
in H.R. 3266 and in particular supports the bill's intent to 
further facilitate funding for our first responders. And the 
Department also acknowledges the Select Committee's work to 
address many of the Department's concerns prior to the actual 
reporting of the bill on April 2.
    For example, the Department appreciates that, as reported, 
H.R. 3266 now requires that applications for regional funding, 
which is a key element of the bill under Section 1804, requires 
that States also receive those applications for review so that 
we can ensure that the proposals for those regional plans are 
consistent with the State's overall homeland security plan. 
Close coordination between the States, localities and regions 
is critical, and it also builds on the existing processes that 
ODP has established through the development of both the State 
Homeland Security Grant Program and the Urban Area Security 
Initiative.
    At the same time, Mr. Chairman, the Department believes 
that many of the H.R. 3266 concerns have already been addressed 
under the Homeland Security Act of 2002 or through departmental 
initiatives, either undertaken or already underway at this 
time. An example is we believe that the H.R. 3266, Section 1803 
task force requirements duplicate efforts and responsibilities 
already existing under the Homeland Security Act, Section 871, 
Advisory Committee Provisions. Under this section, Secretary 
Ridge created the Homeland Security Advisory Council in 2003 as 
a means of providing the Department with a continuing source of 
advice and comment. The Department believes that an 
additional--it would be more appropriate and efficient to 
incorporate any additional roles and responsibilities, as 
outlined in the proposed legislation, task force provisions, to 
be integrated in the current system of this Council rather than 
create new advisory councils.
    Similarly, the Department has taken other acts to address 
many of the other issues raised. Recently, the Department's 
Inspector General, DHS Inspector General, released a report 
titled, ``An Audit of Distributing and Spending First Responder 
Grant Funds.'' The report examined how ODP processed and 
awarded funds. It also examined how a number of the States, 
once they received the awards, how they processed awards, 
obligated and distributed those funds.
    The Inspector General concluded that ODP has been 
successful in developing a management program and that ODP 
reviewed and processed and awarded its grants in a timely and 
effective manner, and that was, again, in concert with 
deadlines and requirements, as prescribed by the Congress. The 
Inspector General also concluded that there are ways in which 
we, ODP, the States and locals can do better and do a better 
job of monitoring and tracking homeland security funds. 
Chairman Cox mentioned some of the confounding issues that are 
unique when we have 56 States and territories, and there are 
any number of combinations of things that affect how those 
funds are actually obligated or disbursed at the local level. 
Most importantly, the Inspector General concluded, and we 
agree, that it is desirable for States to distribute funds 
wisely and prudently via the strategic plans than to distribute 
the funds quickly.
    Mr. Chairman, the Secretary believes that this whole 
funding process is important, and on March 15 of this year, 
Secretary Ridge announced the creation of the Homeland Security 
Funding Task Force. This task force comprised of Governors, 
mayors, county executives and representatives of tribal 
governments and is working--is looking and examining the DHS 
funding process for the State and local assistance programs to 
identify areas where there may be problems or areas where 
things are working. Obviously, there are some States and 
localities where the funds move in a very expeditious and 
efficient manner, so one of the outcomes of this assessment 
will be to identify best practices that we can then share with 
other State and local governments to help pass along innovative 
approaches to streamlining the grant process. The task force, 
Mr. Chairman, will provide a report to the Secretary by the end 
of June, and we will be glad to share that report with this 
committee and other Members of Congress.
    We have also initiated a number of other improvements prior 
to the release of the Inspector General's report. We greatly 
increased our communications to State and local officials. 
There is lots of information out there. Some of it--I think all 
well intentioned, but some of it is not always as accurate as 
we would like it. So we have expanded our outreach and 
engagement with State and local officials to ensure a better 
understanding of the requirements and activities that are their 
responsibilities under the grant program. Examples of that are 
our office along with the other Department components 
participates in biweekly conference calls with the State 
homeland security advisors. We have specific times when we 
present changes and challenges and have an opportunity to 
interact with those key State officials to answer questions 
that in many cases that is all it takes is a good question and 
a good answer. So that is one thing. We have done the same 
thing with the elected officials in the Urban Area Security 
Initiative. We have conference calls between our staff, the 
mayors, other State and local officials within those Urban Area 
Security Initiative to ensure that the program requirements and 
activities are well understood, and if there is any assistance 
necessary, our office is prepared to provide that.
    Now, this past February, Secretary Ridge provided a 
comprehensive report on homeland security funds awarded, 
obligated and spent to the Governors of the States and the 
territories and the mayor of the District of Columbia, and we 
update these reports on a regular basis to keep the chief 
elected officials informed. Helps them better understand the 
unique challenges and processes underway in their States.
    Mr. Bilirakis. Can you summarize, please?
    Mr. Mitchell. Yes, sir. One of the challenges we have that 
was mentioned today was the proliferation of programs, and the 
Secretary has established and notified the Congress the 
intention to consolidate grant programs within the Department 
of Homeland Security into the one-stop shop so the offices of 
ODP and the Office of State and Local Government Coordination 
will be consolidated, and we think that will also greatly 
improve our ability to link these programs and enable the 
Department to evaluate programs more accurately and exercise 
greater oversight.
    And then, finally, HSPD-8 that you mentioned, Mr. Chairman, 
Secretary Ridge has been tasked by the President to develop 
national preparedness goals, improve delivery of Federal 
preparedness assistance to State and local governments and 
strengthen the preparedness capabilities of Federal, State and 
local governments. Inherent to the successful implementation of 
HSPD-8 is the development of clear, measurable standards, and 
this ongoing effort will address that and exceeds the Section 
1802 essential capabilities provision from H.R. 3266 with a 
target of July 31 of this year for completion of a mission-
essential task list for Homeland Security responsibilities.
    Appreciate the opportunity to be here today, and I believe 
that concludes my statements, and I will be more than happy to 
answer questions.
    [The prepared statement of Andrew T. Mitchell follows:]

 Prepared Statement of Andrew T. Mitchell, Deputy Director, Office for 
         Domestic Preparedness, Department of Homeland Security

    Chairman Bilirakis, Congressman Brown, and Members of the 
Subcommittee, my name is Andrew Mitchell, and I serve as the Deputy 
Director of the Department of Homeland Security's (DHS) Office for 
Domestic Preparedness (ODP). On behalf of Secretary Ridge, it is my 
pleasure to appear before you today to discuss the current status of 
ODP and other issues of critical importance.
    On behalf of all of us at DHS, I want to thank you Mr. Chairman, 
and all the members of the Committee, for your ongoing support for the 
Department and for ODP. You and your colleagues have entrusted us with 
a great responsibility, and we are meeting that responsibility with the 
utmost diligence.
    As you are all aware, ODP is responsible for preparing our Nation 
against terrorism by assisting States, local jurisdictions, regional 
authorities, and tribal governments with building their capacity to 
prepare for, prevent, and respond to acts of terrorism. Through its 
programs and activities, ODP equips, trains, exercises, and supports 
State and local homeland security personnel--our nation's first 
responders--who may be called upon to prevent and respond to terrorist 
attacks.
    Mr. Chairman, ODP has established an outstanding track record of 
capacity building at the State, local, territorial, and tribal levels, 
by combining subject matter expertise, grant-making know-how, and 
establishing strong and long-standing ties to the nation's public 
safety community. Since its creation in 1998, ODP has provided 
assistance to all 50 States, the District of Columbia, the Commonwealth 
of Puerto Rico, and the U.S. territories. Through its programs and 
initiatives ODP has trained 325,000 emergency responders from more than 
5,000 jurisdictions and conducted more than 300 exercises. And, by the 
end of Fiscal Year 2004, ODP will have provided States and localities 
with more than $8.1 billion in assistance and direct support.
    Throughout its history ODP has strived to improve how it serves its 
State and local constituents. For example, in Fiscal Year 2003, 
application materials for the Department's State Homeland Security 
Grant Program--under both the Fiscal Year 2003 Omnibus Appropriations 
Bill, and the Fiscal Year 2003 Supplemental Appropriations Bill--were 
made available to the States within two weeks of those bills becoming 
law. Further, over 90 percent of the grants made under that program 
were awarded within 14 days of ODP receiving the grant applications.
    During Fiscal Year 2004, ODP's record of service to the nation's 
first responders continues. As of this week, 52 of the 56 States and 
territories have received their Fiscal Year 2004 funding under the 
Homeland Security Grant Program. This includes funds to support State-
wide preparedness efforts under the State Homeland Security Grant 
Program, the Law Enforcement Terrorism Prevention Program, and the 
Citizen Corps Program. These awards represent over $ 2.1 Billion in 
direct assistance. In total, $2.2 Billion will be provided under this 
initiative.
    Further, 48 of the 50 urban areas designated under the Fiscal Year 
2004 Urban Areas Security Initiative (UASI program) have been awarded 
funding so far; the remaining are still under review. This represents 
$631 Million in support to high-density population centers with 
identifiable threats and critical infrastructure. In total over $670 
Million will be provided to these areas. In addition, the Department 
has identified 30 of the nation's most used urban transit systems and 
will provide $49 Million to enhance the overall security of these 
systems. To date, all 30 of these transit systems have received their 
Fiscal Year 2004 funds.
    Much of how the States and territories will distribute and utilize 
Homeland Security Grant Program funds will be influenced by the results 
of the State Homeland Security Assessments and Strategies. As you know, 
each State, the District of Columbia, the Commonwealth of Puerto Rico, 
and the territories were required to submit their assessments and 
strategies by January 31, 2004.
    These assessments and strategies, Mr. Chairman, are critically 
important to both the States and the Federal Government. They provide a 
wealth of information regarding each State's vulnerabilities, 
capabilities, and future requirements, as well as each State's 
preparedness goals and objectives. They provide each State with a 
roadmap as to how current and future funding, exercise, training, and 
other preparedness resources should be directed and targeted, and they 
provide the Federal Government with a better understanding of needs and 
capabilities. I am happy to report that all assessments and strategies 
have been received and reviewed or currently are under review by an 
intra-DHS review board comprised of representatives from major 
Department components. Of those 56 strategies, 52 have been approved by 
the Department. The remaining four should be approved shortly.
    During Fiscal Year 2005, ODP will continue to provide States and 
localities with the resources they require to ensure the safety of the 
American public. The funds requested by the President for Fiscal Year 
2005 will allow ODP to continue to provide the training, equipment, 
exercises, technical assistance, and other support necessary to better 
prepare our communities.
    DHS's mission is critical, its responsibilities are great, and its 
programs and activities impact communities across the nation. We will 
strive to fulfill our mission and meet our responsibilities in an 
effective and efficient manner. And we will, to the best of our 
abilities, continue to identify where and how we can improve. Part of 
our responsibility, part of the Department's responsibility, Mr. 
Chairman, is the recognition that we can always improve what we do and 
how we do it. And we can never be too safe or too secure.
    This critical mission was recognized by the Congress with the 
passage of the Homeland Security Act of 2002, and the creation of the 
Department of Homeland Security. And since the Department's creation, 
we have worked continuously with the Congress to determine how better 
to fulfill our common goal of a more secure America. One such 
Congressional effort is H.R. 3266, the ``Faster and Smarter Funding for 
First Responders Act of 2003.''
    Introduced by Congressman Cox, H.R. 3266 is a major attempt to 
improve how the Department provides assistance to State and local 
emergency responders. Since the bill's introduction, the Department has 
worked with staff of the Select Committee on Homeland Security and, 
more recently, has provided the Select Committee a ``white paper'' 
containing observations and comments on the bill's provisions. With 
your permission, Mr. Chairman, I would like to share those views with 
this Subcommittee by offering a copy of that ``white paper'' for 
inclusion in the record.
    Generally, Mr. Chairman, the Department supports much of H.R. 3266, 
and in particular supports the bill's intent to further facilitate 
funding for our first responders. The Department also acknowledges the 
Select Committee's work to address many of the Department's concerns 
prior to reporting the bill on April 2, 2004. For example, the 
Department appreciates that, as reported, H.R. 3266 now requires that 
applications for regional funding under the Section 1804 provisions be 
submitted to the state for review, and be consistent with the state's 
overall homeland security plan. Such close coordination between States, 
localities, and regions, is critical to an effective and rational 
distribution of homeland security resources, and is consistent with 
currently existing ODP funding initiatives, such as the Urban Areas 
Security Initiative or UASI Program.
    At the same time Mr. Chairman, the Department believes that many of 
H.R. 3266's concerns have already been addressed under the Homeland 
Security Act of 2002, or through Departmental initiatives already 
underway. For example we believe that H.R. 3266's Section 1803 task 
force requirements duplicate efforts and responsibilities already 
existing under the Homeland Security Acts Section 871 advisory 
committee provisions. For example, under Section 871, Secretary Ridge 
created the Homeland Security Advisory Council in 2003 as a means of 
providing the Department with a continuing source of advice and 
comment. The Department believes that it would be more effective and 
efficient to incorporate additional roles and responsibilities as 
identified under H.R. 3266's task force provisions, into the 
Department's current system of task forces and advisory councils, 
rather than create new advisory mechanisms.
    Similarly, the department has taken other action to address other 
issues raised and addressed by H.R. 3266. Recently the Department's 
Inspector General released a report titled ``An Audit of Distributing 
and Spending `First Responder' Grant Funds.'' That report examined how 
ODP processed and awarded first responder grant funds during Fiscal 
Years 2002 and 2003. It also examined how several of the States, once 
awards have been received, obligate and distribute those funds.
    We at ODP welcomed the Inspector General's scrutiny, and now that 
the report is complete, we see this as an opportunity to validate those 
things we are doing well, and to identify and act upon those things we 
need to do better. With your permission, Mr. Chairman, I would like to 
submit a copy of the report for inclusion in the record.
    Overall Mr. Chairman, the Inspector General concluded that ODP has 
been successful in the development and management of its grant 
programs, and that ODP has assessed, processed, and awarded its grants 
in a timely and effective manner. At the same time the Inspector 
General concluded that there are several ways in which ODP could better 
assist States and local communities in distributing and dedicating 
homeland security funds, as well as monitoring and tracking these funds 
once they have been awarded. The Inspector General concluded that 
various impediments to the timely distribution of funds at the State 
and local level should be addressed, and while some of these 
impediments may be unavoidable, others could be reduced. Most important 
the Inspector General concluded, and we at ODP agree, that it is more 
desirable for States to distribute funds wisely and prudently, than to 
distribute funds in haste.
    Among the report's recommendations were:

 For ODP to institute more meaningful reporting by the States so that 
        ODP can track progress more accurately, both in their 
        distribution of funds and in building their preparedness 
        capabilities, and to better assist States when necessary.
 For ODP to improve its communications with State and local 
        jurisdictions in order to keep them better informed as to 
        program requirements and opportunities for assistance.
 For ODP to accelerate the development of federal guidelines for first 
        responder preparedness, including capability levels, equipment, 
        training, and exercises, in order to enhance the ability of 
        States and local jurisdictions to develop preparedness 
        strategies and target resources.
 For ODP to work with State and local jurisdictions to better identify 
        impediments at the State and local levels to the timely 
        distribution of funds, identify ``best practices,'' and make 
        recommendations to overcome these impediments.
    I am happy to report, Mr. Chairman, that ODP, in consultation with 
the Secretary and other Department components, is already addressing 
many of these recommendations. For instance, for Fiscal Year 2004, ODP 
is implementing new reporting and monitoring guidelines. These new 
procedures will enable ODP to better track each State's progress in 
allocating funds and meeting the objectives outlined in their 2003 
State Strategies and Assessments. Further, prior to the start of Fiscal 
Year 2005, ODP will establish a Dedicated Audit Team in order to more 
closely audit grant expenditures and better ensure compliance with 
program requirements.
    Also during the past year, ODP has greatly improved its 
communications with State and local officials to assist them to better 
understand program requirements and better plan for the use and 
allocation of program funds. As an example, ODP, along with other 
Department components, participates in bi-weekly conference calls with 
the various State homeland security directors. These conference calls 
provide direct access among Federal and State representatives to 
facilitate the quick flow of information. Similarly, ODP, as part of 
its administration of the Fiscal Year 2003 UASI Program, instituted 
conference calls among ODP staff and mayors and other State and local 
officials representing the various urban areas comprising the UASI 
sites. Again the use of conference calls expedited and facilitated the 
exchange of information and ideas among the parties.
    Further Mr. Chairman, this past February, Secretary Ridge provided 
each State's governor with a report on homeland security funds awarded, 
obligated, and spent within the State. These reports are being updated 
on a regular basis. Keeping the governors informed in this manner has 
enhanced their ability to maintain oversight over these monies. These 
efforts are in addition to ODP's continuing efforts to provide customer 
service, including the ODP Helpline, and technical assistance and 
monitoring visits by ODP staff to State and local jurisdictions. Within 
the past six months, staff from ODP's State and Local Management 
Division, the ODP component responsible for the administration of the 
homeland security grant funds, have made 22 monitoring trips and, in 
the last 12 months, have made 300 technical assistance trips to State 
and local jurisdictions.
    ODP is also continuing its efforts to develop preparedness 
standards and to establish clear methods for assessing State and local 
preparedness levels and progress. As you will recall Mr. Chairman, on 
December 17, 2003, the President issued ``Homeland Security 
Presidential Directive (HSPD)-8.'' Through HSPD-8, the President tasked 
Secretary Ridge, in coordination with other Federal departments and 
State and local jurisdictions, to develop national preparedness goals, 
improve delivery of federal preparedness assistance to State and local 
jurisdictions, and strengthen the preparedness capabilities of Federal, 
State, territorial, tribal, and local governments. HSPD-8 is consistent 
with the broader goals and objectives established in the President's 
National Strategy for Homeland Security issued in July, 2002, which 
discussed the creation of a fully-integrated national emergency 
response capability. Inherent to the successful implementation of HSPD-
8 is the development of clear and measurable standards for State and 
local preparedness capabilities.
    The standards that will result from HSPD-8 implementation build on 
an existing body of standards and guidelines developed by ODP and other 
Federal agencies to guide and inform State and local preparedness 
efforts. Since its inception ODP has worked with Federal agencies and 
State and local jurisdictions to develop and disseminate information to 
State and local agencies to assist them in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, equipment, 
and exercises. Again, with your permission Mr. Chairman, I would like 
to submit for inclusion in the record, a summary of standards and 
guidelines issued by ODP over the last several years.
    Earlier this year, the Secretary delegated to ODP the 
responsibility for the implementation of HSPD-8. This designation by 
the Secretary is consistent with ODP's mission, as provided under the 
provisions of the Homeland Security Act, to be the primary federal 
agency responsible for the preparedness of the United States for acts 
of terrorism. And ODP, together with Secretary Ridge, other Department 
components, Federal agencies, and State and local governments, firmly 
believe that the successful implementation of HSPD-8 is essential and 
critical to our Nation's ability to prevent, prepare for, and respond 
to acts of terrorism. In March, the Secretary approved these key items: 
first, a strategy for a better prepared America based on the 
requirements of HSPD-8; second, an integrated, intra- and inter- 
governmental structure to implement HSPD-8; and third, an aggressive 
timeline for achieving HSPD-8's goals and objectives. Implementation of 
HSPD-8 involves the participation of Federal, State, and local 
agencies, and, among other things, will result in the development and 
dissemination of clear, precise, and measurable preparedness standards 
and goals addressing State, local, and Federal prevention and response 
capabilities.
    Further, I would like to reemphasize the importance of ODP's State 
Homeland Security Assessments and Strategies that were submitted to ODP 
by the States and territories this past January. And, it is important 
to note that this is not the first time States have been tasked with 
providing assessments. The information contained in these reports 
provides critical data describing State and local capabilities and 
requirements for use by both the States and the Federal Government. 
This data provides a critical benchmark from which ODP can assess both 
past and future progress in their development of preparedness 
capabilities. The current assessments and strategies are being compared 
to the first group of assessments and strategies submitted in Fiscal 
Year 2001. Then, the current group of assessments and strategies will 
provide a mark from which ODP can compare future assessments and 
strategies. In addition, the current assessments and strategies will 
help guide ODP's decisions regarding State and local training, 
equipment, planning, and exercise requirements.
    Also critical to the implementation of HSPD-8 is the improved 
delivery of homeland security assistance, including homeland security 
funding to State and local governments. This too was examined by the 
DHS Inspector General's report, which concluded that although ODP has 
been able to distribute funds to States in a timely manner, there were 
some impediments that slowed the further distribution of funds from 
States to local jurisdiction. These impediments did not exist in every 
State or in every jurisdiction, and, as the Inspector General noted, 
some impediments are unavoidable, and some can be corrected. For 
example, some delays in the distribution of homeland security funds can 
be linked to State and local procurement laws and requirements. Other 
delays resulted from the local planning process and the need to form 
consensus across multiple jurisdictions. Some delays were the result of 
deliberate decisions by State and local leaders who chose to spend more 
time planning rather than to spend funds quickly. Yet, despite these 
difficulties, ODP and the Department are committed to finding ways to 
further improve the distribution of homeland security funds.
    To that end Mr. Chairman, on March 15, 2004, Secretary Ridge 
announced the creation of the Homeland Security Funding Task Force. 
This task force--chaired by Massachusetts Governor Mitt Romney and co-
chaired by Akron Mayor Donald Plusquellic, and comprised of several 
governors, mayors, county executives, and a representative of tribal 
governments--will examine DHS' funding process for State and local 
assistance to ensure that DHS funds to the Nation's first responders 
move quickly and efficiently. It will also identify ``best practices'' 
in an effort to offer solutions to both the Department and State and 
local jurisdictions. By directly involving the States, territories, 
local communities, and tribal governments, this task force will provide 
an ongoing source of information to assist DHS and States and 
localities to do a better job. And, the formation of this task force 
underscores the Secretary's commitment to a partnership between the 
Federal Government and its State and local counterparts, and his 
approach to homeland security as ``One Mission, One Team.'' This task 
force, Mr. Chairman, will provide a report to the Secretary by the end 
of June, which we will share with the Congress.
    An additional and important step toward improving how homeland 
security assistance is provided to States and local jurisdictions is 
contained in the President's Fiscal Year 2005 budget request. As part 
of the effort to improve the distribution of homeland security funds, 
the Administration has requested that the Secretary be provided 
increased flexibility under the distribution formula for ODP's Homeland 
Security Grant Program as contained in Section 1014 of the USA PATRIOT 
Act. This request is consistent with the Department's long-standing 
position that the PATRIOT Act formula be changed.
    Our request to change the formula is designed to ensure that we can 
target Federal dollars in a manner consistent with protecting the 
nation in the most efficient and effective manner. It is designed to 
enable the Secretary to consider critical factors such as threats and 
vulnerabilities--factors this Committee has recognized as important. 
This increased flexibility will allow the Secretary to move Federal 
resources to respond to changes in vulnerabilities and threats.
    This more nuanced approach does not mean, however, that minimum or 
base funding levels for the States and territories will be eliminated. 
As you are aware, Secretary Ridge has consistently stated that a 
minimum amount of funds should be provided to all States and 
territories, and that for the nation to be secure, all States and 
territories must have the resources to address their particular and 
unique security needs.
    Secretary Ridge is also taking steps to ensure that its staff and 
program offices can more efficiently support States and localities. On 
January 26, 2004, the Secretary informed the Congress of his intention 
to consolidate ODP with the Office of State and Local Government 
Coordination to form a new office--the Office for State and Local 
Government Coordination and Preparedness.
    This consolidation is in direct response to requests from the 
nation's first responders to provide the emergency response community 
with a ``one-stop-shop'' that is a central focal point for grants, 
assistance, and other interactions with the Department. Further, this 
consolidation places 25 varied State and local assistance programs and 
initiatives within one office to ensure simplified and coordinated 
administration of these programs. Finally, this consolidation also will 
eliminate the duplication across program lines and heighten the 
complementary and synergistic aspects of these programs, and, by 
linking these programs to the State strategies and assessments, 
maximize their ultimate impact on States and localities.
    At the same time, grouping these programs under one consolidated 
office ensures that the grants administration staffs and a limited 
number of program subject matter experts who guide these programs will 
work together, share their expertise, and achieve the Department's goal 
of a better prepared America. The consolidation will enable the 
Department to evaluate programs more accurately, exercise greater 
Federal oversight, and ensure the government-provided resources are 
dispersed quickly and are used to maximum efficiency. This decision 
will benefit States and localities by providing them with a unified and 
coordinated means of assistance and support. It also provides a 
platform to ease coordination with other departments and agencies, as 
required in HSPD-8.
    In closing Mr. Chairman, let me re-state Secretary Ridge's 
commitment to support the Nation's State and local emergency response 
community, and to ensure that America's first responders receive the 
resources and support they require to do their jobs. This concludes my 
statement. I am happy to respond to any questions that you and the 
members of the Committee may have. Thank you.
    [The OIG Audit, OIG-04-15, is available at the OIG web site, 
www.dhs.gov.]

    Mr. Bilirakis. Thank you, sir, and there will be questions.
    Mr. Raub, you are on, sir.

                  STATEMENT OF WILLIAM F. RAUB

    Mr. Raub. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate this opportunity to share the 
Department's views on H.R. 3266, the proposed legislation for 
faster and smarter funding for first responders. I will present 
a summary statement now, and with your permission, Mr. 
Chairman, will submit my full statement for the record.
    H.R. 3266 seeks to foster strong, seamless coordination 
among agencies of the Federal Government and between the 
Federal Government and our State and local partners. HHS shares 
this goal. We place a high priority on strong, sustained 
collaboration with our colleagues in DHS and other agencies and 
will continue to do so.
    At the same time, we are concerned that H.R. 3266 neither 
inadvertently alter the authorities of the Department of Health 
and Human Services nor impede its ability to perform its 
responsibilities under law. H.R. 3266 contains several 
provisions that overlap with mandates of the Public Health 
Security and Bioterrorism Preparedness and Response Act of 
2002, which authorized most of the bioterrorism, preparedness 
and response programs within HHS, particularly those that 
address State and local readiness. In particular, I will 
address new Sections 1802, 1803 and 1806 of the Homeland 
Security Act of 2002, as they would be added by H.R. 3266.
    New Section 1802 directs the Secretary of Homeland Security 
to establish clearly defined, essential capabilities for State 
and local government preparedness for terrorism. New Section 
1803 specifies the means to this end: The DHS Task Force on 
Essential Capabilities for First Responders. Further, H.R. 3266 
defines first responders as emergency response providers, and 
the latter are defined in the Homeland Security Act of 2002 to 
include emergency medical personnel and hospital emergency 
personnel as well as State, Federal, local emergency public 
safety, law enforcement, emergency response and related 
personnel agencies and authorities.
    These provisions cause concern as they are stated, because 
the Public Health Security Act created the Working Group on 
Bioterrorism and other Public Health Emergencies and among 
other things charged it to provide an, ``assessment of the 
priorities for an enhancement of the preparedness of public 
health institutions, providers of medical care and other 
emergency service personnel, including fire fighters to detect, 
to diagnose and respond, including mental health response for a 
biological threat or attack.''
    Thus, without further clarification or delineation of 
functions, H.R. 3266 may engender activities that duplicate 
statutorily mandated initiatives of HHS. As a potential remedy, 
HHS recommends that the proposed legislation be revised to 
include language that would identify the Secretary of Health 
and Human Services explicitly among those with whom the 
Secretary of Homeland Security must consult when establishing 
essential capabilities.
    New Section 1806 directs the Secretary of Homeland Security 
to support the development of, promulgate and update a series 
of national voluntary consensus standards for first responder 
equipment that is to be supported by the Homeland Security 
grants envisioned in the bill. Under the Public Health Security 
Act and other relevant statutes, HHS provides funds to States 
and other eligible entities for public health preparedness and 
hospital readiness, including the acquisition of certain 
equipment. Some of this equipment appears to fall within H.R. 
3266's definition of first responder equipment--for example, 
equipment for biological detection and analysis, chemical 
detection and analysis, decontamination and sterilization, 
personal protective equipment, respiratory protection, 
interoperable communications and data networks. Further, the 
HHS Working Group created by the Public Health Security Act is 
tasked with development of shared standards for equipment to 
detect and protect against biological agents and toxins.
    HHS suggests two candidate remedies. First, for the 
required categories of equipment that the Secretary of Homeland 
Security is directed to consider for the development of 
national voluntary consensus standards, we recommend modifying 
the language to circumscribe the type of equipment as first 
responder equipment intended for use in the field. This would 
eliminate coverage of equipment used in hospitals and other 
facilities, such as biological safety cabinets in clinical 
laboratories and mass spectrometers in chemical laboratories.
    Second, to increase the likelihood that DHS and HHS will 
develop a set of mutually consistent standards for essentially 
the same equipment, we recommend that H.R. 3266 be revised to 
state that the two departments shall develop standards jointly 
for equipment that will be used by both DHS-funded first 
responders and HHS-supported State and local health 
departments, hospitals and supporting health care entities.
    New Section 1806 also calls upon the Secretary of Homeland 
Security to support the development of, promulgation of, and 
regularly update national voluntary consensus standards for 
first responder training. Under its existing authorities and 
appropriations, HHS provides substantial funding for training 
and education efforts at the State and local levels. Without 
exception, every jurisdiction funded by HHS for bioterrorism 
preparedness and response is planning and implementing 
education and training activities, some of which are carried 
out jointly with traditional first responders.
    Further, the statutorily mandated HHS Working Group also 
was tasked with the development and enhancement of the quality 
of joint planning and training programs that address the public 
health and medical consequences of a biological threat or 
attack on the civilian population between, No. 1--local fire 
fighters, ambulance personnel, police and public security 
officers or other emergency response personnel, including 
private response contractors, and, No. 2--hospitals, primary 
care facilities and public health agencies.
    Preparedness for terrorism or other emergencies demands 
that DHS and HHS provide guidance to our respective awardees 
that is consistent and mutually reinforcing. To that end, we 
recommend the insertion of language in H.R. 3266 requiring the 
Secretary of Homeland Security to consult with the Secretary of 
HHS in requiring the Task Force on Essential Capabilities to 
coordinate with the Working Group on Bioterrorism, to ensure 
that, to the extent possible, the development of national 
voluntary consensus standards for both equipment and training 
is a collaborative and coordinated process.
    Thank you, Mr. Chairman. I will be pleased to respond as 
best I can to your comments and questions.
    [The prepared statement of William F. Raub follows:]
   Prepared Statement of William F. Raub, Principal Deputy Assistant 
    Secretary, Office of the Assistant Secretary for Public Health 
    Emergency Preparedness, Department of Health and Human Services
    Good afternoon, Mr. Chairman and members of the Subcommittee.
    I am William F. Raub, Principal Deputy Assistant Secretary for 
Public Health Emergency Preparedness, at the Department of Health and 
Human Services (HHS). I welcome this opportunity to share the 
Department's views on H.R. 3266, the proposed legislation for ``Faster 
and Smarter Funding for First Responders,'' introduced by Congressman 
Christopher Cox, Chairman of the House Select Committee on Homeland 
Security, as reported by that Committee.
    Before I provide the Department's comments on the contents of the 
bill, I want to take this opportunity to underscore the many 
collaborative and coordinated activities that HHS has undertaken with 
the Department of Homeland Security over the last year. Whether the 
issues deal with state and local emergency preparedness, the planning 
for and deployment of the Strategic National Stockpile, the development 
of medical countermeasures under Project BioShield, or the development 
of the National Response Plan and the National Incident Management 
System, our two Departments have worked diligently to keep each other 
apprised and involved. The relevant personnel in the two Departments 
(myself included) have strived on an ongoing basis to coordinate our 
respective activities at both the policy and planning level as well as 
at the implementation and deployment level. This approach lays the 
foundation not only for enhancing interagency coordination but also for 
creating a more robust and harmonized response capacity at the state 
and local levels.
    H.R. 3266 contains several provisions that overlap with mandates of 
the Public Health Security and Bioterrorism Preparedness and Response 
Act of 2002 (referred to hereafter as the Public Health Security Act), 
the legislation that authorizes most of the bioterrorism preparedness 
and response programs within HHS, particularly those that address state 
and local readiness. In particular, I will address new sections 1802, 
1803 and 1806 of the Homeland Security Act of 2002, as would be added 
by H.R. 3266.
    In new section 1802, the Secretary of Homeland Security is directed 
to ``establish clearly defined essential capabilities for State and 
local government preparedness for terrorism.'' The bill language 
defines ``essential capabilities'' as ``the levels, availability, and 
competence of emergency personnel, planning, training, and equipment 
across a variety of disciplines needed to effectively and efficiently 
prevent, prepare for, and respond to acts of terrorism consistent with 
established practices.''
    Further, HR 3266 defines ``first responders'' as ``emergency 
response providers'' and the latter are defined, in the Homeland 
Security Act of 2002, to include emergency medical personnel and 
hospital emergency personnel as well as Federal, State, and local 
emergency public safety, law enforcement, emergency response and 
related personnel, agencies, and authorities. Thus the cross-over of 
the definition of ``first responders'' to include what are traditional 
health care workers may create a situation whereby the DHS Task Force 
on Essential Capabilities for First Responders (to be established under 
Section 1803) will be undertaking an activity, i.e., establishing 
``essential capabilities,'' for a community of health providers that 
generally look to HHS to establish standards and priorities for public 
health emergency preparedness.
    Furthermore, there is currently a Working Group on Bioterrorism and 
Other Public Health Emergencies (referred to hereafter as the Working 
Group), authorized by the Public Health Security Act, that is to 
provide an ``assessment of the priorities for and enhancement of the 
preparedness of public health institutions, providers of medical care, 
and other emergency service personnel (including firefighters) to 
detect, diagnose, and respond (including mental health response) to a 
biological threat or attack'' (see section 319F(a)(1)(F), as added by 
section108 of the Public Health Security Act). It is clear that, 
without further clarification and delineation of functions in H.R. 
3266, the bill may engender activities that duplicate statutorily 
mandated initiatives of HHS.
    To advise the Secretary of Homeland Security on establishing 
essential capabilities for terrorism preparedness at the state and 
local level, the Task Force on Essential Capabilities is expected to 
produce a draft report of recommendations ``for the essential 
capabilities all State and local first responders should possess, or to 
which they should have access, to enhance terrorism preparedness.''
    Although the proposed legislation does not identify public health 
professionals and health care providers as first responders, the bill 
does identify such individuals as members of the Task Force. We assume 
that, as members of the Task Force, these public health and medical 
professionals would contribute to the identification of ``essential 
capabilities for state and local preparedness for terrorism.'' We 
further assume that their contributions would most likely be in their 
areas of expertise and experience.
    At a time in which states and local jurisdictions are looking to 
the Federal Government to provide clear and explicit guidance in all 
areas of terrorism preparedness and response, I cannot overemphasize 
the importance of providing clear and consistent federal 
recommendations and guidelines. We recommend, therefore, that the 
proposed legislation be revised to include language that would 
explicitly identify the Secretary of Health and Human Services among 
those with whom the Secretary of Homeland Security must consult when 
establishing ``essential capabilities.''
    New section 1806 as added by of H.R. 3266 directs the Secretary of 
Homeland Security to ``support the development of, promulgate and 
update'' a series of ``national voluntary consensus standards'' for 
first responder equipment that is to be supported by the homeland 
security grants envisioned in the bill.
    Currently, funds awarded to the states by HHS for public health 
preparedness and hospital readiness may be applied to the purchase and 
acquisition of certain equipment. Some of this equipment appears to 
fall within H.R. 3266's definition of first responder equipment; for 
example, equipment for biological detection and analysis, chemical 
detection and analysis, decontamination and sterilization, personal 
protective equipment, respiratory protection, interoperable 
communications, and data networks. Furthermore, the HHS Working Group 
is currently tasked with ``development of shared standards for 
equipment to detect and to protect against biological agents and 
toxins.''
    For the ``required categories'' of equipment that the Secretary of 
Homeland Security is directed to consider for the development of 
national voluntary consensus standards, we recommend modifying the 
language to circumscribe the type of equipment as ``first responder 
equipment intended for use in the field.'' This would eliminate 
coverage of equipment used in hospitals and other facilities, e.g., 
biological safety cabinets in clinical laboratories and mass 
spectrometers in chemical laboratories.
    H.R. 3266 does not include a definition for ``national voluntary 
consensus standards.'' Consequently, it is not clear what is meant or 
covered by this phrase. Moreover, will these standards be truly 
voluntary, that is to say, are they to be adopted at the discretion of 
the states or local jurisdictions? If so, this may create a number of 
technical as well as compliance problems for the user communities.
    To maximize the likelihood that DHS and HHS will develop a set of 
mutually consistent standards for essentially the same equipment, we 
recommend that this provision of the bill be revised to state that the 
two Departments shall collaborate in jointly developing standards for 
equipment that will be used by both DHS funded first responders and 
HHS-supported state and local health departments, hospitals and 
supporting health care entities.
    New section 1806 also calls upon the Secretary of Homeland Security 
to support the development of, promulgate and regularly update national 
voluntary consensus standards for first responder training. Within its 
own programs, HHS continues to work towards ensuring the most effective 
application of funding to training and education efforts at the state 
and local levels. Without exception, every jurisdiction funded by HHS 
for bioterrorism preparedness and response is planning and implementing 
education and training activities, some of which are carried out 
jointly with traditional first responders.
    In this arena, the HHS Working Group is also tasked with the 
``development and enhancement of the quality of joint planning and 
training programs that address the public health and medical 
consequences of a biological threat or attack on the civilian 
population between (i) local firefighters, ambulance personnel, police 
and public security officers, or other emergency response personnel 
(including private response contractors); and (ii) hospitals, primary 
care facilities, and public health agencies.'' This area of overlap 
between DHS and HHS provides a clear opportunity for coordination and 
collaboration between the two Departments. Since a response to any kind 
of terrorist attack will require a seamless response among all 
emergency responders, joint training and exercises involving public 
safety and law enforcement personnel as well as public health and 
health care workers in a variety of scenarios are both appropriate and 
feasible.
    To ensure the effectiveness of such joint efforts, it is essential 
that the national voluntary consensus standards reflect the appropriate 
roles of all response personnel. To this end, the development of these 
standards should involve not only DHS and HHS but also relevant 
professional organizations (both those identified in new section 1806 
and the American Hospital Association, the Joint Commission on 
Accreditation of Healthcare Organizations, and the American College of 
Emergency Physicians), government agencies such as the Occupational 
Safety and Health Administration, and others.
    It is critical that, in supporting the enhancement of state and 
local emergency response capabilities and capacities, DHS and HHS 
provide guidance to their respective awardees that is mutually 
consistent and reinforcing. To that end, we recommend the insertion of 
language in HR3266 requiring the Secretary of Homeland Security to 
consult with the Secretary of HHS and requiring the Task Force on 
Essential Capabilities to coordinate with the Working Group on 
Bioterrorism to ensure that, to the extent possible, the development of 
``national voluntary consensus standards'' for both equipment and 
training is a collaborative and coordinated process. This would 
minimize, if not eliminate, any duplication of effort and inconsistency 
in recommendations.
    Given the mission of the Department of Homeland Security and the 
goals of the HHS bioterrorism preparedness and response programs, there 
are naturally a variety of opportunities for collaboration. We have 
taken advantage of many of these. At the same time we are mindful of 
the mandates of our own authorizing legislation, the Public Health 
Security Act, which directs HHS to carry out a broad array of tasks 
intended to prepare the nation to respond more effectively to 
bioterrorism, other outbreaks of infectious diseases and other public 
health threats and emergencies. Thus language in H.R. 3266 should not 
alter, or impede the ability to carry out, the authorities of the 
Department of Health and Human Services to perform its responsibilities 
under law.
    Thank you. I will be glad to respond to any questions that the 
Subcommittee may have.

    Mr. Bilirakis. Mr. Raub--well, first, let me ask both of 
you, I mean it is obvious that close contact, close 
coordination, a close relationship, if you will, among DHS and 
HHS is critical. Would you both agree?
    Mr. Raub. Yes, sir.
    Mr. Bilirakis. Has that been--can we say that that has 
taken place, that you all have gotten along well, you have 
coordinated? Any problems there?
    Mr. Mitchell. No, sir.
    Mr. Bilirakis. None whatsoever.
    Mr. Mitchell. It has been very positive.
    Mr. Raub. And we work hard at it, sir.
    Mr. Bilirakis. And you work hard at it. That is good to 
hear. Mr. Mitchell, your participation in the Section 108 
Working Group, has that been extensive?
    Mr. Mitchell. Well, our office is not involved in that, but 
it is my understanding that representatives from FEMA are the 
primary DHS representatives. There are DHS participants in that 
process, sir.
    Mr. Bilirakis. Well, I just want to be sure that--and 
forgive me, I don't mean to slight either one of your groups, 
but one of the problems with Capitol Hill, and I have been here 
for 22 years, is everybody seems to be concerned about their 
turf, you know, the damn turf battles that takes place here in 
Congress, in God knows, so very much, and the stakes are 
awfully high when it comes to homeland security, and I would 
hope that that is not a problem between you two.
    Mr. Raub, have you had an opportunity or what kind of an 
opportunity has HHS had as far as input into the preparation of 
this legislation is concerned?
    Mr. Raub. This was our first opportunity, sir, with 
respect----
    Mr. Bilirakis. Your first opportunity?
    Mr. Raub. This was the first I had seen it, and we are 
appreciative of the committee for giving us that opportunity.
    Mr. Bilirakis. Okay. You have made many recommendations. I 
don't know whether that can be interpreted as finding many 
faults with the legislation, but you have made plenty of 
recommendations.
    Mr. Raub. We didn't believe we were finding fault as such, 
sir. What we tried to recognize is where, on its face, there 
seemed to be an overlap.
    Mr. Bilirakis. I think, generally speaking, overlap is bad 
in any area, but is it bad in this area? I mean there are areas 
of overlap.
    Mr. Raub. It is not bad so long as we are each aware of the 
other's activities and we can ensure that each is making the 
appropriate contribution to the other. We flagged the overlap 
to the extent that if one or the other of us were to proceed in 
ignorance of the other's authorities, we could very well be 
doing the same thing twice or worse address the same issue and 
produce slightly different responses. Both might be valid, but 
they would be confusing, at best, especially to our partners 
and State and local communities. So we flag those things, not 
in any sense in opposition to the legislation, but rather, to 
get the kind of clarification to ensure that we each know what 
our respective responsibilities are.
    Mr. Bilirakis. Mr. Mitchell, anything you want to add to 
that?
    Mr. Mitchell. Well, I think there are--like I said, there 
are ongoing activities, particularly the HSPD-8 implementation 
where a number of these issues are going to be resolved at the 
Secretary level, at the Assistant Secretary level as well as 
the operational level. We have a very aggressive schedule and 
plan for the implementation of HSPD-8, and I can assure you, 
sir, that HHS and all the other key Federal partners will be 
involved in that probably more than they would choose to be, 
but it is--I think it is indicative of the type of relationship 
we have. It is a massive challenge we have on both sides, and 
we look forward to continuing that active partnership.
    Mr. Bilirakis. I sort of wish Mr. Cox had sort of hung 
around here where he could maybe go into some of these areas 
with you, and he hasn't done that up to now, apparently. How 
about the staffs? How much time have staffs worked together on 
this legislation?
    Mr. Mitchell. We have spent a fair amount, and we have 
had----
    Mr. Bilirakis. Fair amount?
    Mr. Mitchell. Yes, sir, that is with staff.
    Mr. Bilirakis. How about with HHS, do you know?
    Mr. Mitchell. No, sir, not on this particular bill, no.
    Mr. Bilirakis. Okay. Are we doing something here, the old 
doctor's thing, do no harm? Are we doing something here that 
might be harmful rather than helpful or might we be doing 
something here that might be harmful?
    Mr. Mitchell. I think the intent of this legislation--I 
think we agree that there are things we can do better. I think 
just the pace of activities that as the proposed legislation 
has evolved and reached the point where it is a lot of things 
have been occurring simultaneously that, as we said earlier, a 
lot of the problems identified and some of the solutions there 
are already a number of activities underway in DHS that we 
think probably adequately address some of the concerns raised. 
But we certainly don't--we have no argument or concern about 
the purpose of the bill, which is to make it more efficient. We 
must support that, the threat base, changing the funding 
approach.
    The Secretary has been on record for quite a long time 
saying we need to revisit how we're going to allocate these 
funds. Currently, we have two grant programs, the Homeland 
Security Grant Program, which is distributed under the Patriot 
Act formula, as Chairman Cox described, but we also have the 
Urban Area Security Initiative, which is the Secretary has the 
discretion as Congress has been kind enough to provide that 
where we look at threat presence of critical infrastructure, 
population density to determine metropolitan areas that are 
going to receive funding specifically based on those three 
criteria.
    So we think we have kind of the right balance in current 
programs that address that. This is addressing that maybe in a 
more consolidated way, and for our office I will certainly 
commit to working with the Congress as we go through and refine 
these. I think there are some things in here that we would 
support, and I think the Department generally supports--like I 
said, supports the overall thrust.
    Mr. Bilirakis. Mr. Raub, honestly, I take all your 
recommendations in a positive vein, so please don't think to 
the contrary. But do you have a very brief response to my 
question about are we doing harm or might we be doing harm?
    Mr. Raub. I don't believe there is anything inherent in the 
bill that would result in harm. The concern we raised is that 
to the extent we were duplicating activity unnecessarily, we 
are not getting as much bang for the buck as we should. To the 
extent we address essentially the same problem independent of 
each other without being aware of what the other is doing, we 
could produce something that is inefficient or confusing to our 
State and local partners. And that is harmful, but easily 
avoided with the types of recommendations we have specified.
    Mr. Bilirakis. Well, I am going to yield to Dr. Norwood 
now, but let me just say to you that we are planning to go 
forward with this legislation because we have a piece in the 
overall picture here. So any help that you can be, well, from 
both of you, obviously, but HHS in particular since we have the 
direct jurisdiction over HHS. So I can't tell you when markup 
might take place. We have to complete our work by June 7 on 
this, so markup would be sometime downstream here. But if there 
are areas here that bother you from a constructive vein, we 
would welcome any comments from you and what not. You have 
already made plenty but anyhow just inputs would be very 
helpful.
    Mr. Raub. Okay. Thank you, Mr. Chairman. We will be pleased 
to assist the subcommittee in any way we can.
    Mr. Bilirakis. Thanks, Mr. Raub. Dr. Norwood.
    Mr. Norwood. Thank you, Mr. Chairman. Let me start by 
saying, Mr. Raub, my tendency is to totally agree with most of 
what you have said. I think there can be great harm here if we 
aren't very, very careful. There are three parts, Mr. Mitchell, 
you said to this, and one is obviously to prevent a terrorist 
act, that is part of your job, be prepared and, last, to 
respond. And I think probably our committee is most interested 
in the respond part, because that is where patients are, that 
is where the health part of this comes in. And, frankly, I just 
don't--I can't imagine the mess it would make if you, as 
Homeland Security, gets into this respond part, this health 
part too very deeply without being on the same page with HHS. 
If each of you come out with different sets of standards and 
guidelines and equipment selection, it is going to be a worse 
disaster out there than it already is in our effort as a Nation 
to try to get ready for this.
    Let me ask either one of you, we have something like 40,000 
health care providers in my State, in Georgia. Where would I 
send them for training to respond to a nuclear attack or a 
biochemical attack? Where would they go today to get training 
so that--this reminds me a little bit--I want to come back, I 
still want an answer to that question, but it reminds me a 
little bit of what happens during a disaster, whether it be a 
damn breaking, whether it be Chernobyl, whether it be a MASH 
unit in the middle of the war. Everybody has to do a lot of 
things. Nobody gets to just do their little specialty area 
because there are so many casualties.
    My point is we may have the greatest pediatricians in the 
world in Georgia, but they probably haven't done trauma 
medicine lately. They probably haven't had to deal with a 
burned patient from radiation. Now, my question is where I 
would say to them today to go, where could we get them up to 
speed should we have a disaster?
    Mr. Raub. Mr. Chairman, I would be glad to provide you for 
the record, a list of institutions that are funded by our 
Health Resources and Services Administration for two aspects of 
training of health care providers in these areas. One is a set 
of institutions providing training programs, the other is a set 
developing curricula with a view to----
    Mr. Norwood. Well, just tell me one or two of them.
    Mr. Raub. I don't have the list memorized, sir, but there 
are a number of major academic health centers.
    Mr. Norwood. I am pretty well aware of it, because the 
Medical College of Georgia is one of them, and that is why I am 
sort of interested in this training aspect. So is Eisenhower 
Army Hospital involved in this. I am back to, though, there 
isn't really anywhere right now. You can get pieces and parts 
and it is not standardized in any way. A doctor in South 
Carolina may go to a different institution than a doctor in 
Georgia, yet the disaster may be right on the line. The 
equipment is not necessarily standardized in either way, 
particularly equipment used to treat patients, which to me that 
sort of falls in your bailiwick working with Homeland Security 
so you guys don't run us off in two different directions.
    Mr. Raub. Mr. Congressman, you are correct. The array of 
training programs offered are not yet comprehensive in the way 
they should be.
    Mr. Norwood. No. They are not accredited either.
    Mr. Raub. And we have not addressed the standards issue 
primarily because a year ago when this funding effort started, 
we didn't feel we had a sufficient knowledge base or a 
sufficient set of materials upon which we could put a standard 
label. And that was one of the reasons for directing a 
substantial fraction of the funds to curricula development.
    One of the most important elements that is developed is--as 
we look to the training for health care professionals--it is 
necessary that we provide them the relevant information about, 
let us say, anthrax or smallpox or plague, the characteristics 
of the disease, but we have also realized we need to provide 
them training about incident management, their relationships 
with the fire department, with the police department.
    And, increasingly, the guidance we are sending out for the 
training says go beyond the medical subject matter into the 
procedural and operational response material. Now, for many of 
our health departments and for many of our hospitals, that is 
totally new. It is new terrain, we did not have off-the-shelf 
materials we could simply plug in. Some of this curriculum 
development activity is designed to develop those in the 
direction that you are urging us to go.
    Mr. Norwood. And I want you to understand I am not finding 
fault. I can see why in this short length of time we might not 
be prepared. Part of the training needs to be for the policemen 
or the firemen to treat a patient too. I mean they can learn 
emergency things to keep people alive or to triage a unit. 
There is so much, so many people out there who we all are 
calling first responders that in a real disaster they are all 
going to be trying to keep people alive. All I want to do is 
encourage you that training has got to be put on the fast 
track. So you know how I envision this thing. You can, as you 
pointed out, have university system and others who can train 
5,000 people a year who can go back home, wherever home was, 
and they can train their police department, they can train 
their--that is the only way we are going to get this spread out 
across the country so these people we refer to as first 
responders can actually--a fireman is going to have to do a lot 
more than put a fire out, it is as simple as that, and I 
encourage you guys to get together, one, and make sure that you 
are all saying the same thing. The worst thing you can do is 
tell a university or a fire department that here are two 
different ways to go, ``Which way do we do, what kind of 
equipment do we buy, you said one, you said another.'' That is 
disastrous. And, second, put this thing on a fast track.
    Mr. Mitchell. Mr. Congressman, we have an ongoing 
relationship with HHS, CDC and others. We have a pretty 
comprehensive set of training courses. We have about 43 courses 
that we currently provide.
    Mr. Norwood. Pardon me for interrupting, but didn't you 
tell me you just saw this bill? Mr. Raub?
    Mr. Raub. Yes, sir.
    Mr. Norwood. That isn't exactly working with them, pal.
    Mr. Mitchell. Concerning this bill?
    Mr. Norwood. Yes. This bill is going to very much affect 
the outcome of how these two departments do things. I mean it 
looks like to me you guys would sit down and say, ``Maybe we 
had better check in with HHS, health is their bailiwick, and 
talk to them a little bit before we start suggesting standards 
for emergency rooms and hospitals and types of equipment.''
    Mr. Bilirakis. Let us ask the question, if you will yield a 
moment, Doctor, have you had that opportunity? I asked the 
question earlier on, Mr. Raub, have you both had the 
opportunity to sit down and to discuss what this bill is 
intended to do or to fill in gaps, areas--I mean we are talking 
about a new concept here, homeland security. Brand new, it is 
far from perfect, maybe it will never get to be perfect, 
nothing ever is, I suppose. So we are learning as we go along. 
We are learning as we go along here, and there are things we 
probably can fix that you have experienced that may not even be 
in this legislation because you haven't gotten, I think--one of 
the reasons, one of the biggest reasons would be because you 
haven't gotten your heads together. And I don't know whether 
fault lies with you in that regard, but please proceed, Doctor.
    Mr. Norwood. Well, if you need statutory authority, which 
somebody feels you do, and I suspect as you, in order to get 
this thing working this right, I am just saying you guys have 
got to work together and you can't--I don't see how you walk in 
with a bill and say, ``Boy, we have worked this thing over 
really well and we have solved all the problems,'' without the 
Secretary of HHS ever having had some input into this bill. And 
I know he would like to, because I heard you give out a number 
of recommendations that you were suggesting for this bill, of 
which many, first blush, please understand, I mean we are all 
learning here as we go, but first blush some of the things, Mr. 
Raub, you said made sense to me.
    And I just would like--at the end of the day, guys, not to 
speak of the unbelievable loss of taxpayer dollars, but there 
will be a great deal of confusion. This would not be the first 
time a Member of Congress was complained to from constituents 
at home saying, ``Two different agencies are telling me to do 
two different things, and I don't know what to do.'' And all I 
am asking you--I know how fast all this is hitting you, and I 
am not complaining, I am just saying at the end of the day get 
together.
    Mr. Mitchell. Well, I would like to leave you with the 
thought that we collaborate on a regular basis, not just on one 
piece of proposed legislation. I mean our offices, our agencies 
work very closely.
    Mr. Norwood. Well, I presume this isn't very important. 
That is why you didn't call them, and you don't necessarily 
need statutory authority to do what you want to do anyway?
    Mr. Mitchell. Well, we have--like I said, we have provided 
our perspectives on this legislation. I think there are some 
elements of this, as I said, that the Department of Homeland 
Security, from our perspective, and the majority of the 
components of this are addressing the programs in DHS. They are 
not addressing other Federal agencies' grants. So we have had 
significant discussions with the committee staff on this 
particular piece of legislation.
    Mr. Norwood. But Dr. Raub has a big budget too and a lot of 
tax dollars, and he understands the need for training and 
standardization out there. Let us don't have two agencies--even 
if you did the exact same thing to have it done by two 
agencies. Get together.
    Mr. Mitchell. Well, I don't want to give you the, I don't 
want to say false impression, but the impression that the HSPD-
8 is going to address a lot of these. But one of the components 
of HSPD-8 is to look at the existing standards that are out 
there. We are not talking about creating a whole new different 
suite of things. We are talking about taking a look at what 
currently exists and reaching consensus on which ones are the 
rights ones and moving out. We are not starting with a clean 
slate. There is an enormous amount of information that----
    Mr. Bilirakis. Are you saying that there are areas that 
need to be fixed as a result of your experiences and you feel 
that HSPD-8 is going to take care of that. And for that reason 
it is not necessary to get them into this legislation?
    Mr. Mitchell. I think that there are a number of things 
that are already underway. As I discussed, the task force that 
is proposed, I agree with Dr. Raub, I think that duplicates 
existing structures. We already have resources that are 
currently existing in the Department of Homeland Security that 
could play that role. The development of the preparedness 
measures that are called for under the current plan for HSPD-8 
we will have those developed by July 31 of this year. We don't 
really need a task force to take a year to develop those. We 
are aggressively moving, as we speak, to address a number of 
the requirements that are specified in this bill.
    Mr. Bilirakis. So it is wrong to have a task force 
requirement in this legislation.
    Mr. Mitchell. We think so; yes, sir.
    Mr. Bilirakis. Well, I want to go to Mr. Shimkus now, but I 
think before we finish up here maybe we ought to sort of button 
up a couple of things that are still up in the air. Mr. 
Shimkus, please proceed.
    Mr. Shimkus. Thank you, Mr. Chairman. And this is an 
important hearing, and I think we want to be very efficient 
with not only the dollars but with a clear plan for people who 
are applying. And I think my colleague, Dr. Norwood, is 
expressing some of the frustrations that I think many of us 
here out on the hastings from folks who have this confusion and 
then they hear that there are dollars available and then it 
takes a long time for money to roll out, and they fear that the 
big bureaucracy consumes it all and it doesn't get where it is 
most needed. And I think that is just part of the, again, 
frustration, especially with the duplication that a lot of us 
are looking at with respect to the bioterrorism bill that we 
passed in 2002. And that is kind of where I am addressing some 
of my remarks to.
    In one of my first--I am a fairly, not junior, but I guess 
mid-level member. I don't get on very many conferences, so when 
I get on one it is a big deal for me, and that was the case 
with the bioterrorism bill. And it seems to me that many of 
these first responders under H.R. 3266 are also covered under 
the Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002. HHS must have preparedness goals for 
State and local governments that are similar to the, quote, 
unquote, ``essential capabilities,'' that H.R. 3266 is 
referring to. This seems to be the thrust of what Mr. Raub's 
been mentioning in his testimony, I am assuming. Has HHS shared 
these goals and experiences with your, Mr. Mitchell, and the 
Department of Homeland Security for the administration of your 
grant programs?
    Mr. Mitchell. Well, I am not convinced that there is 
overlap in the two grant programs. I am quite confident we have 
complementary but different organizational focus. ODP's focus 
historically has been that first responders, police, fire, 
HazMat, EMS, that we don't train--our focus stops at the 
emergency room door, and we have collaborated with HHS, well, 
since our office has been in existence since 1998 on jointly 
reviewing training. Like I said, we have a group of 
representatives from CDC as well as HHS that when we are 
considering courses to be adopted, that the technical reviews 
on things that have a medical responsibility or medical focus 
are done by--it is better through those agencies.
    It is not that the Department of Homeland Security or 
previously in the Department of Justice we did not develop 
medical training to train medical providers. It was a 
collaborative process, but they did not overlap, and that was 
intentional, because the expertise in the health care system 
with acute care physicians and emergency room technicians and 
doctors and nurses is in HHS, and I think we would continue to 
maintain that balance. Even under this proposal, under this 
bill we would focus predominantly on the grants of DHS.
    Mr. Shimkus. Yes. It seems like we are going to have a lot 
of--I saw Dr. Norwood go for the microphone and Mr. Raub, but 
let me just, before you all jump in, in H.R. 3266, in the 
definition, you do mention emergency medical including hospital 
emergency facilities. So it is just not stopping right at the 
door, it is actually going inside by your own definition, at 
least that is what we are reading. Is that true? And that is 
the confusion.
    Mr. Mitchell. Operationally, from ODP, that is true. This 
is not DHS' bill. This is a bill that we are commenting on just 
like anyone else. So we did not define the----
    Mr. Shimkus. But you worked with our colleague, Congressman 
Cox----
    Mr. Mitchell. Sure.
    Mr. Shimkus. [continuing] on drafting legislation. So you, 
in essence----
    Mr. Mitchell. We worked with him on providing our comments. 
No, we did not work to draft it. We reviewed it after it was--
--
    Mr. Shimkus. So do you support the bill or don't you 
support the bill?
    Mr. Mitchell. We support certain elements of the bill, as I 
said in my testimony and as we introduced--I mean there are 
components in there that we don't support or we don't support 
in the way it is developed in the legislation. And, certainly, 
we would not support anything that would create duplication 
between what HHS and DHS does collectively with grants to help 
State and local governments. But, historically, we have not 
provided resources, training, equipment for hospital providers. 
That has been handled under the Bio Preparedness Program and 
the HRSA Program.
    Mr. Shimkus. Mr. Chairman, I think my colleague, Dr. 
Norwood, would like some time, and I would like to yield some 
time to him.
    Mr. Norwood. If you would yield just a second. Let me 
follow right into that subject right there. Under Section 1806 
of the bill, volunteer equipment standards and training 
standards would, DHS, end up doing standards on hospital 
emergency facility equipment for emergency medical personnel 
training. Would you do that under this bill?
    Mr. Mitchell. Under HSPD-8, those are the types of things--
we have the lead on that and DHS know that would not be--the 
lead on that would be----
    Mr. Norwood. So you will not do that, because you said you 
will stop at the emergency room door.
    Mr. Mitchell. No, I didn't say--if we are looking at 
preparedness of the Nation under HSPD-8, we are looking across 
the Federal Government, so, yes, those may be issues that are 
addressed, but they would be addressed as directed by HHS. It 
would not be our office or someone in DHS arbitrarily 
developing standards for those types of equipment.
    Mr. Norwood. Well, what if there is not an emergency room? 
What is it is blown up? What if we are talking about equipment 
out in the field, which is likely to be a situation for a 
serious disaster?
    Mr. Mitchell. Like a field hospital or some other triage 
capability?
    Mr. Norwood. Actually, under a tree. I mean it can get just 
that way in a real disaster. Mr. Chairman, I will conclude with 
this. All I am telling you is, yes, you didn't write the bill 
because you can't, but you collaborated on it, and I am 
concerned that the two agencies--now, I am talking about not 
all of it, I am talking about just the response, the two 
agencies should be talking and you should dare not come out 
with two sets of who is in charge and two sets of standards. 
That is all I am saying.
    Mr. Bilirakis. They did not both collaborate in it, though. 
HHS did not collaborate in any way, apparently, from what I 
understand, and I am not sure to what degree DHS collaborated 
because you say there are some things in here that you like and 
some things that you don't like.
    Mr. Mitchell. Well, just like any number of bills we are 
asked to comment on, we were asked to comment on this one, and 
I can assure you there are a lot of them we are asked to 
comment on.
    Mr. Bilirakis. Were you asked to comment on it before 
today, before this hearing?
    Mr. Mitchell. Yes, sir. Actually, we have testified on this 
bill prior to today.
    Mr. Bilirakis. How about HHS?
    Mr. Raub. To the best of my knowledge, sir, this is the 
first and only opportunity we have had to testify on this bill.
    Mr. Bilirakis. So you see where we are here.
    Mr. Norwood. Yes, sir. That has got to be fixed.
    Mr. Bilirakis. Yes. I think so, and that is why I say I 
wish Mr. Cox were here. Well, you have given us your testimony, 
we have asked questions. I think we kind of went into this 
assuming it was going to be sort of a relatively routine 
hearing, but I think it has turned out not to be. Maybe it is a 
good thing that there aren't more Members of Congress here.
    Mr. Shimkus. Mr. Chairman?
    Mr. Bilirakis. Yes.
    Mr. Shimkus. Mr. Raub was going to comment on the 
discussion we had on just the medical aspect, and if you still 
would like to, sir, I want to make sure you get a chance to.
    Mr. Bilirakis. By all means, please do so.
    Mr. Raub. And, actually, I have accumulated a few more now, 
if I may.
    Mr. Bilirakis. A few million more?
    Mr. Raub. The comment I was going to make earlier is that 
our staffs have had considerable interaction about our 
respective award programs to the State and locals, particularly 
with the movement of ODP to, the new Department of Homeland 
Security. We had some staff interaction so we could each 
understand better what the other was attempting to achieve, and 
I reinforce Mr. Mitchell's statement that we think we have a 
strong complementarity of the way we award funds to public 
health departments and to hospitals and the way DHS awards 
funds to what I will call the traditional first responders.
    We have some areas that we indeed must continue to work at, 
with or without legislation. Emergency medical services is one 
example of that. Many EMS units are based in fire departments 
and therefore would be included under the awards coming from 
DHS. Other EMS units are free-standing and may not be picked up 
automatically. In any event, our program for hospital 
preparedness has an EMS outreach component to it trying to 
address, in part, the question that Mr. Norwood was raising of 
how do the people in emergency rooms engage with the field 
forces that are dealing with hazardous materials, activities, 
or other types of trauma, burn, emergency medical situations. 
None of us believe we have all the answers to that, but absent 
legislation I can--or with legislation we can assure you that 
the two agencies and others will continue to address that very 
strongly.
    Mr. Shimkus. Mr. Chairman, if I may just add to that. One 
of the grant programs that I have been very, very pleased with 
that has not been part of this debate but when you talked about 
fire services and EMS inside fire services is the Fire Act 
grant that actually comes through FEMA. But here is another 
example of another grant program that really can impact and 
impinge on homeland security and the ability to respond. It is 
easy, it is clear and there doesn't seem to be a lot of 
bureaucratic hurdles. And when the folks that I have worked 
with have made application and they have not been successful, 
they have had an easy way of looking at their application to 
find out why it hasn't been successful.
    On the positive side, I am very, very pleased with it. I 
would like to see it maybe expanded to EMS. But that is a FEMA 
agency--I mean that is a grant program through FEMA, not 
through HHS or not through Homeland Security, so now we have 
got three.
    Mr. Mitchell. Well, actually, Mr. Congressman, that program 
is currently administered by ODP. It was transferred to ODP in 
fiscal year 2004.
    Mr. Shimkus. Oh, that is right, it changed. Right.
    Mr. Bilirakis. How about my sheriff who needs some money 
for his radios, first responder?
    Mr. Mitchell. They are eligible to receive equipment 
funding under the Homeland Security Grant Program.
    Mr. Bilirakis. Could they also go to FEMA?
    Mr. Mitchell. FEMA had some funding I think in 2003 for 
interoperable communications. It was kind of a demonstration 
program. I am not aware that they have funding in 2004, but 
that is one of the principal funding categories in the Homeland 
Security Grant Program and in the Law Enforcement Prevention 
Program as well. The communications upgrades are addressing the 
communications needs of law enforcement who are eligible.
    Mr. Bilirakis. Well, we have got to finish this up some 
time. Go ahead, Doctor.
    Mr. Norwood. Just final words.
    Mr. Bilirakis. Final words coming from Dr. Norwood.
    Mr. Norwood. The fun part, of course, is buying the 
equipment. Everybody likes to do that. Everybody likes to have 
all the good, shiny, new stuff. What I am afraid, though, and I 
am not positive but just a little bit of work we have done on 
this, we are behind the eight ball a little bit with training 
and most particularly standardized training. And I am talking 
about the type of training that lets the EMS, the State patrol, 
the fire chief, everybody take care of responding after the 
disaster has occurred. And I know you guys are doing some of 
that, but we are not there, and maybe time hasn't been 
available to us, but I urge you to get very serious about that, 
because it doesn't do any good too have all that new equipment 
if people don't know what orderly to do in a fire fight, 
because that is what it is. Thank you, Mr. Chairman.
    Mr. Bilirakis. Well, my gratitude to you and to Mr. Shimkus 
for taking the time to be here. You have contributed so very 
much. And, gentlemen, you have worked so very hard. We owe you 
an awful lot. But we want to do the right thing here, and we 
are--I think we have all expressed a little disappointment that 
you haven't had more of an input in this legislation, because 
it involves you. And, granted, it is DHS but at the same time 
it includes an awful lot--well, there should have been better 
coordination.
    So we give you the opportunity now. We are going to have a 
markup on this, I suppose, somewhere downstream, and we are 
giving you the opportunity for inputs. If you want to make a 
case that it may do more harm than good, please feel free to 
make that case. If you, as you have already done, made 
recommendations on some changes should be made to what is in 
there, just maybe expand on that. If you want to come to the 
conclusion that the legislation is going to go forward anyhow, 
it may be your opportunity as a vehicle to correct some areas 
that you see need to be corrected legislatively in terms of 
this issue.
    So as usual we have a series of questions which we will 
furnish you with, and we would hope you respond in a timely 
fashion, but, again, keep in mind June 7. So I don't know 
whether this thing has been scheduled for markup? No, it has 
not been scheduled for markup. Again, on the premise it is 
going to go into markup within the next few days, that is only 
a premise, I have no idea. I have a meeting in a half hour. I 
may find out a little more about that. Please furnish us 
whatever inputs you may have. You have an opportunity to do it 
here now. Thanks for all your help. Appreciate it.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Mr. Raub. Thank you, Mr. Chairman.
    Mr. Bilirakis. The hearing is adjourned.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                              U.S. House of Representatives
                                                      June 28, 2004
The Honorable Michael Bilirakis
Chairman, Subcommittee on Health
Committee on Energy and Commerce
U.S. House of Representatives
Washington, D.C. 20515
    Dear Chairman Bilirakis: Enclosed please find the response to the 
question for the record you submitted on behalf of Representative 
Pickering relating to my testimony at the May 11, 2004 hearing of the 
Subcommittee on Health on ``H.R. 3266, the Faster and Smarter Funding 
for First Responders Act of 2004.''
    I appreciate the opportunity you provided to testify before the 
Subcommittee in support of this important legislation to enhance the 
capabilities of America's first responders to prevent, prepare for, and 
respond to acts of terrorism.
            Sincerely,
                                            Christopher Cox
                                                           Chairman
Enclosure
        question by the honorable charles w. ``chip'' pickering
    Question: H.R. 3266, as reported by the Select Committee on 
Homeland Security on March 17 adopts the definition of ``emergency 
response providers'' from the Homeland Security Act as the definition 
of ``first responder'' in the bill. In explaining its intent, the 
committee included report language addressing ``related personnel'' as 
part of that definition, which includes non-governmental organizations 
with assigned responsibilities under domestic preparedness and response 
incident management plans.Is it your understanding that such non-
governmental organizations like the American Red Cross, who have 
mandated responsibilities under the current Federal Response Plan, 
would qualify for that definition?
    Answer: Yes. The Homeland Security Act's definition of ``emergency 
response providers'' is not limited to Federal, State, and local 
government personnel and entities. The Select Committee's Report on 
H.R. 3266 (H. Rep. 108-460) notes that the Select Committee believes, 
and for purposes of H.R. 3266 intends, that the ``related personnel'' 
element of that definition should be understood to include non-
governmental organizations that have mandated responsibilities under 
the Federal Response Plan. The Select Committee understands that the 
American Red Cross is such an organization.
                                 ______
                                 
   Responses for the Record to Questions of Hon. Charles W. ``Chip'' 
                               Pickering

                   QUESTION FOR DHS AND HHS WITNESS:

    QUESTION: Public health preparedness and response is a critical 
component of ensuring our nation's homeland security.
    What steps are your agencies taking to protect the blood supply 
from a bioterror attack or cybersecurity breach and have you engaged 
the Red Cross for their expertise?
    RESPONSE: The Department of Health and Human Services (HHS) is 
currently working with the entire blood community on blood supply 
protections, including the American Red Cross (ARC) which collects and 
supports approximately 45 per cent of the nation's blood supply. The 
blood supply critical infrastructure protection (CIP) is being 
addressed locally at blood centers. HHS is also addressing blood supply 
safety through its work with the American Association of Blood Banks' 
Interorganizational Task Force on Domestic Disasters and Acts of 
Terrorism (Task Force). The Task Force presented a blood safety plan in 
January, 2004, that incorporates recommendations by the Advisory 
Committee on Blood Safety and Availability. The goal of the plan is to 
store 10,000 units of blood, at key strategic locations throughout the 
U.S., for delivery within 4-6 hours. The first locations would be at 
two military facilities so that the CIP could be sufficiently 
evaluated. Under the plan, once the first two military sites are 
operational, HHS would identify eight other sites throughout the U.S. 
The CIP model developed in the first phase, with the military, would be 
used to evaluate and shore up the civilian sites. The figure of 10,000 
units was determined through HHS's experience with the ``Top-Off'' 
bioterrorism exercise, as an amount needed to sustain two cities for 
three days.
    With regard to cybersecurity, HHS notes that ARC has struggled with 
its computer system for well over ten years and this matter has been 
cited in its Consent Decree. Nevertheless, the issue of cybersecurity 
will be evaluated as HHS identifies the ten locations and data sharing 
to support the plan for a blood Reserve.

                                 <all>

</pre></body></html>
